                                                                             Report No. DODIG-2014-103



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              AUGUST 29, 2014




                     Evaluation of DoD Compliance
                     with the Sex Offender Registration
                     and Notification Act




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                Results in Brief
                                Evaluation of DoD Compliance with the Sex Offender
                                Registration and Notification Act



August 29, 2014

Objective                                        Recommendations
We evaluated the Department’s compliance           •	 Under Secretary of Defense for Personnel and Readiness
with the Sex Offender Registration and                (USD [P&R]):
Notification Act (SORNA), established by
                                                       {{   conduct a study to determine the benefits of legislation
Title I of the “Adam Walsh Child Protection
                                                            to designate DoD as a SORNA jurisdiction;
and Safety Act of 2006” (Public Law 109-248).
We also evaluated whether the Department               {{   develop policy to:
effectively accounts for registered sex
offenders with access to DoD facilities.                    •	 establish a position at military correction facilities
                                                               to monitor registration of released inmates;

Findings                                                    •	 require accounting of registered sex offenders on
                                                               DoD installations and implement a Department
The Department:
                                                               of Defense Sex Offender Registry Management
   •	 is compliant with SORNA registration                     program;
      requirements;
                                                            •	 require the use of DD Form 2707-1, “DoD Report of
   •	 needs policy requiring Military                          Result of Trial,” and not Service-derived forms;
      Departments and Defense Agencies to
                                                            •	 require orders promulgating the result of trial to
      account for registered sex offenders;
                                                               annotate sex offender registration requirements;
   •	 needs policy to account for registered
                                                            •	 establish assistance agreements with agencies
      sex offenders deploying to, or returning
                                                               involved in sex offender management and tracking;
      from, foreign countries.
                                                            •	 establish a DoD offender management program
   •	 lacks accountability of sex offenders
                                                               coordinator to preclude violations relating to
      accessing DoD facilities;
                                                               foreign deployments of DoD affiliated sex offenders
   •	 can better support efforts by Federal                    by ensuring DoD personnel are compliant with
      counterparts and other agencies                          registered sex offender international travel
      to account for DoD convicted sex                         requirements; and
      offenders; and
                                                            •	 ensure DoD offenders convicted of qualifying sex
   •	 should improve processes to promote                      offenses overseas register upon return to the
      more efficient compliance.                               United States and the appropriate SORNA
                                                               jurisdiction is notified of the offender’s return.



Visit us at www.dodig.mil


                                                                                  DODIG-2014-103 (Project No. 2012C012) │ i
                                        Results in Brief
                                        Evaluation of DoD Compliance with the Sex Offender
                                        Registration and Notification Act



  Recommendations (cont’d)                                     Management Comments
      •	 Secretaries of the Military Departments require the   Overall USD (P&R) and the Secretaries of the Military
         Services’ Judge Advocate Generals implement quality   Departments management comments were responsive and
         control measures to ensure DD Forms 2707-1 are        agreed with our recommendations. Where the Secretaries
         completed properly.                                   did not comment on pertinent recommendations, we
                                                               requested their comments. As a result of management
      •	 USD (P&R) and the Secretaries of the Military
                                                               comments, we made adjustments to the body of the report.
         Departments share sexual offender confinement data
         and consider a plan for the Services’ correctional
         programs to use a common corrections management
         information system.




ii │ DODIG-2014-103 (Project No. 2012C012)
Recommendations Table
                                                              Recommendations       No Additional
                        Management                            Requiring Comment   Comments Required
The Under Secretary of Defense for Personnel and Readiness                        A.1 and A.3, B, C, D, E
The Secretaries of the Military Departments (Army and Navy)   A.2
The Secretaries of the Military Departments                   A.3




                                                                             DODIG-2014-103 (Project No. 2012C012) │ iii
                                              INSPECTOR GENERAL
                                             DEPARTMENT OF DEFENSE
                                             4800 MARK CENTER DRIVE
                                          ALEXANDRIA, VIRGINIA 22350-1500


                                                                                             August 29, 2014

           MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
           	              SECRETARIES OF THE MILITARY DEPARTMENTS
           	              COMMANDER, UNITED STATES TRANSPORTATION COMMAND

           SUBJECT:	 Evaluation of DoD Compliance with the Sex Offender Registration and Notification Act
           	         (Report No. DODIG-2014-103)

           This report is provided for information and use. We determined the Department is compliant
           with existing Sex Offender Registration and Notification Act (SORNA) requirements; however,
           improved processes would promote more efficient compliance. The Department lacks policy
           requiring Military Departments and Defense agencies to account for registered sex offenders,
           and consequently, does not effectively account for registered sex offenders with access to
           DoD facilities, or for sex offenders deploying to, or returning from, foreign countries. The
           Department can better support efforts by Federal counterparts and other agencies to account for
           DoD-affiliated convicted sex offenders.


           We considered management comments on the draft of this report when preparing the final
           report. DoD Directive 7650.3 requires recommendations to be resolved promptly. Based on
           management comments we made revisions to the body of the report and our recommendations.
           Overall, the comments from the Under Secretary of Defense for Personnel and Readiness and
           the Secretaries of the Military Departments were responsive; however, the Secretaries of the
           Military Departments did not respond to all pertinent recommendations. Therefore, we request
           the Secretaries of the Military Departments provide management comments as indicated in
           the attached recommendations table.


           We appreciate all the courtesies extended to our staff. For additional information on this report,
           please contact Mr. John K. Dippel at (703) 604 9294 (DSN 664 9294) or john.dippel@dodig.mil.




           	                                                Randolph R. Stone
           	                                                Deputy Inspector General
           	                                                Policy and Oversight




iv │ DODIG-2014-103
Contents
Introduction
Objective__________________________________________________________________________________________1
Background_______________________________________________________________________________________1
Federal Law and DoD Policy Requirements____________________________________________________2

Finding A. (1) DoD is compliant with SORNA____________________5
	          (2) Improved processes would promote
	          more efficient compliance with SORNA_______ 10
Conclusion______________________________________________________________________________________ 11
Recommendations, Management Comments, and Our Response__________________________ 12

Finding B. The lack of jurisdiction for DoD to register
military sex offenders with the National Sex Offender
Registry enables military sex offenders released
from military prisons to evade sex offender
registration requirements____________________________________________________ 16
Conclusion______________________________________________________________________________________ 21
Recommendations, Management Comments, and Our Response__________________________ 21

Finding C.         (1) The Department lacks policies
	                  to implement SORNA foreign
	                  travel guidelines________________________________________________ 24
	                  (2) The Department lacks policies to ensure _
	                  offenders convicted of sex offenses abroad _
	                  register as sex offenders upon their return
	                  to the United States__________________________________________ 25
Conclusion______________________________________________________________________________________ 27
Recommendations, Management Comments, and Our Response__________________________ 28




                                                                                                       DODIG-2014-103 │ v
                  Contents (cont’d)
                  Finding D. The Department has little accountability
                  of the population of sex offenders with regular
                  and periodic access to DoD facilities. DoD lacks
                  policy requiring Military Departments to account
                  for registered sex offenders. This results in
                  divergent efforts to account for sex offenders
                  on DoD installations______________________________________________________________ 29
                  Conclusions_____________________________________________________________________________________ 35
                  Recommendations, Management Comments, and Our Response__________________________ 35

                  Finding E. The Department can better support efforts
                  by Federal counterparts and other agencies to account
                  for DoD-affiliated convicted sex offenders_______________________ 38
                  Conclusion______________________________________________________________________________________ 40
                  Recommendations, Management Comments, and Our Response__________________________ 41

                  Appendixes
                  Appendix A. Implementing SORNA__________________________________________________________ 43
                  Appendix B. Scope and Methodology________________________________________________________ 50
                  Appendix C. Listing of Offenses Requiring Sex Offender Registration_____________________ 56
                  Appendix D. References_______________________________________________________________________ 60
                  Appendix E. Related Coverage________________________________________________________________ 64
                  Appendix F. DD Form 2701-1_________________________________________________________________ 65

                  Management Comments
                  USD (P&R) _____________________________________________________________________________________ 66
                  Secretary of the Army_ ________________________________________________________________________ 70
                  Secretary of the Navy__________________________________________________________________________ 78
                  Secretary of the Air Force_____________________________________________________________________ 80

                  Acronyms and Abbreviations______________________________________________ 82


vi │ DODIG-2014-103
                                                                                           Introduction




Introduction
Objective
We evaluated the Department’s compliance with the Sex Offender Registration and
Notification Act (SORNA), established by Title I of the “Adam Walsh Child Protection
and Safety Act of 2006” (Public Law 109-248). The DoD Inspector General (IG) initiated
this evaluation as a proactive measure. Our evaluation focused on determining the:

        •	 adequacy of DoD and Service policies governing all DoD service members
           convicted of crimes requiring sex offender registration;

        •	 effectiveness of DoD military correctional facilities to notify (1) convicted
           military sex offenders of their registration requirement; (2) Federal,
           State, and local law enforcement registration officials; and (3) victims and
           witnesses of an offender’s release; and

        •	 effectiveness of efforts to account for registered sex offenders with access
           to DoD facilities.


Background
SORNA requires people convicted of most sexual offenses to register with their States.
The States enter the registration into the national sex offender database. There is no
separate Federal or military registration system. In April 2012, OIG DoD investigators
attended the Army Sexual Harassment/Assault Response and Prevention (SHARP)
Summit and were briefed on issues regarding Army sex offenders. According to figures
provided by the SHARP office, in 2011, the Army had 77 registered sex offenders
serving on active duty. In July 2011, the overall registered sex offender population
who self-identified to DoD law enforcement was 86 (60 civilians, 23 contractors,
2 dependents, and 1 military retiree).    In 2012, the Army had 45 registered sex
offenders serving on active duty. Based on a review of data call responses for this
evaluation, the other Services were unable to provide similar figures of their overall
registered sex offender population. We identified concerns about whether Service
members requiring sex offender registration were complying with the law or whether
permanent change of station transfers and divergent Military Service policies were
contributing to non-compliance.

SORNA requires a host of Federal agencies to implement its statutory requirements.
See Appendix A for a listing of these agencies and their summarized SORNA




                                                                                       DODIG-2014-103 │ 1
Introduction



                 responsibilities.           See Appendix B for our scope and methodology of this review.
                 Also, see Appendix D for a list of referenced Federal laws, DoD and Military Service
                 references, and Appendix E for related coverage on sex offender management.


                 Federal Law and DoD Policy Requirements
                 Federal Law
                 Title 1 of the Adam Walsh Child Protection and Safety Act of 2006, commonly known
                 as SORNA, establishes a national database of registered sex offenders. SORNA also
                 requires jurisdictions to establish and maintain a sex offender registration and
                 notification system conforming to comprehensive minimum standards established
                 by the Act.1 Military installations, Federal prisons, and military corrections facilities
                 (MCF) are not jurisdictions as defined in SORNA section 111(10), and SORNA did not
                 establish a separate jurisdiction or Federal registration program for sex offenders
                 released from Federal or military prisons. However, Service members convicted of most
                 military sexual offenses must comply with SORNA and register with the appropriate
                 State jurisdiction.2             Military sexual offenses requiring registration are referred to
                 in this report as “Qualified Military Offenses” (QMOs). A complete list is included
                 in Appendix C.

                 In an effort to ensure sex offenders’ register as required, military correctional personnel
                 are required to notify receiving jurisdictions that offenders will be released to their
                 areas of jurisdiction.

                                   such [military] sex offenders are integrated into the sex offender
                                   registration programs of the states and other (non-federal) jurisdictions
                                   following their release. Provisions of federal law, appearing in
                                   18 U.S.C. 4042(c) and section 115(a)(8)(C) of Public Law 105-119,
                                   require federal and military correctional and supervision personnel
                                   to notify the receiving jurisdiction’s authorities concerning the release
                                   to their areas of such sex offenders so that this integration can be
                                   effected. Moreover, these sex offenders are required to comply with
                                   the SORNA registration requirements in the jurisdictions in which they


                 	1	
                       “The National Guidelines for Sex Offender Registration and Notification – Final Guidelines,” July 2008, (National Guidelines)
                       published by the U.S. Department of Justice Office of the Attorney General, describe changes in sex offender registration
                       and notification standards:
                         	  The SORNA reforms are generally designed to strengthen and increase the effectiveness of sex offender
                            registration and notification for the protection of the public, and to eliminate potential gaps and loopholes
                            under the pre-existing standards by means of which sex offenders could attempt to evade registration
                            requirements or the consequences of registration violations.
                 	2	
                     Section 111(5), and (6) and Section 141of Public Law 109-248 (120 Stat. 592, 604), changing 18 U.S.C. 951 note, and
                     referencing Section 115(a)(8)(C)(i) of Public Law 105-119 (111 Stat. 2466); DoD Instruction 1325.07, March 11, 2013,
                     Appendix 4 to Enclosure 2.




2 │ DODIG-2014-103
                                                                                                                                          Introduction



                   reside, are employed, or attend school as mandatory conditions of
                   their federal supervision, as provided in 18 U.S.C. 3563(a)(8), 3583(d),
                   4209(a), and may be prosecuted under 18 U.S.C. 2250 if they fail
                   to do so.3


Department of Defense
The Secretaries of the Military Departments are directed to establish policies and
procedures to ensure correctional facilities comply with sex offender registration
requirements:

Department of Defense Directive (DoDD) 1325.04, “Confinement of Military Prisoners
and Administration of Military Correctional Programs and Facilities,” August 17, 2001,
(certified current as of April 23, 2007), establishes policy and responsibilities for the
administration and operation of military correctional programs and facilities worldwide.

DoD Instruction (DoDI) 1325.07 identifies the Uniform Code of Military Justice (UCMJ)
offenses that trigger sex offender reporting (see Appendix C) and requires DoD
correctional facility commanders to:

               •	 ensure records of prisoners are reviewed to determine if the prisoner has
                   been convicted of a sexually violent offense;

               •	 inform prisoners convicted of a QMO before release from a confinement
                   facility of the registration requirements of the State the prisoner will reside
                   upon release and requirements should the prisoner relocate to another
                   State, and inform the prisoner they must also register in a State where the
                   prisoner may be employed, or is a student; and

               •	 ensure the prisoner acknowledges in writing that they were informed of
                   the registration requirements.4

The Instruction also states “The Secretaries of the Military Departments will establish
a system to verify required notifications have been made for prisoners, military
members whose sentences do not include confinement, and those members who were
sentenced to confinement but are no longer confined.”



	3	
       “The National Guidelines for Sex Offender Registration and Notification – Final Guidelines,” July 2008, (National Guidelines)
       published by the U.S. Department of Justice Office of the Attorney General, page 47.
	 4	
       DoDI 1325.07, “Administration of Military Correctional Facilities and Clemency and Parole Authority,” March 11, 2013,
       which reissued DoDI 1325.7, entitled the same. Our review considered data and activity from 2011-2012 analyzed against
       DoDI 1325.7, which was in effect at that time. The development of DoDI 1325.07 does not affect the analysis of our
       findings, and the new Instruction did not substantially revise provisions considered for the purposes of this report.




                                                                                                                                       DODIG-2014-103 │ 3
Finding A



                 Finding A
                 (1) DoD is compliant with SORNA.
                 Current SORNA legislation and DoD policy require the Department to identify and
                 publish QMOs.     The Service Judge Advocates (SJAs) are required to identify QMO
                 convictions on Reports of Result of Trial (ROT), which are furnished to MCFs. When
                 confinement is not required, SJAs must notify offenders of registration requirements
                 and penalties for noncompliance. The MCFs must then inform inmates, before release,
                 of registration requirements. The MCFs must also notify (1) registration officials where
                 the inmate intends to reside after release, (2) the NSOTC of inmates’ release, and
                 (3) witnesses and victims, if requested, of changes in an offender’s status.

                 DoDI 1325.07 requires MCF Commanders to inform offenders of registration
                 requirements upon release from confinement using the DD Form 2791, “Notice of
                 Release/Acknowledgement of Convicted Sex Offender Registration Requirements,”
                 or an equivalent. It also requires MCF Commanders to provide release notifications
                 to appropriate Federal agencies and SORNA jurisdictions.        Interviews of MCF and
                 State and local agency officials, as well as reviews of MCF databases and documents,
                 indicate the Department is in compliance with required notifications.


                 (2) Improved processes would promote more efficient
                 compliance with SORNA.
                 The SJAs and MCFs are accomplishing SORNA requirements, but use of standardized
                 forms, consolidation of corrections databases, and improved SJA documentation of
                 sex offender notification requirements can improve the Department’s efficiency in
                 complying with SORNA.

                 According to DoDD 1325.04, “corrections programs shall promote uniformity in and
                 among the Military Services in . . . the operation and administration of correctional
                 facilities and programs . . . .” None of the Services use the DD Form 2707-1,
                 “DoD Report of Result of Trial,” choosing to use Service-derived forms to annotate
                 SORNA notifications. When sex offender registration is not clearly indicated on the
                 ROT, the MCF has to interpret legal jargon to determine if the conviction meets
                 registration requirements.    Additionally, only the Army, Navy, and Marine Corps
                 have electronic databases to maintain prisoner records and document offender
                 notifications.   These databases do not interface with one another or with other
                 components of the Services’ justice systems. An integrated system would promote
                 more efficient compliance with SORNA.


4 │ DODIG-2014-103
                                                                                                                      Finding A




   Figure 1. Marine Corps Correctional Facility Housing Area.
   Source: Headquarters Marine Corps, Law Enforcement and Corrections, Arlington, VA.



(1) DoD is compliant with SORNA.
Notifications to SORNA Jurisdictions by Military
Correctional Facilities
In 2011 and 2012, approximately 40 percent of inmates confined in military
prisons required sex offender registration. On December 31, 2011, prison populations
in MCFs totaled 1,528, of which 605 (40 percent) were convicted of QMOs.
On December 31, 2012, prison populations in MCFs totaled 1,434, of which 633
(44 percent) were convicted of QMOs.5

DoDI 1325.07 requires MCF Commanders to inform offenders of registration
requirements upon release from confinement using the DD Form 2791 or an
equivalent. SORNA notifications at MCFs are facilitated by the use of DD Form 2791.
DoDI 1325.07 also requires MCF Commanders to notify appropriate Federal agencies
and SORNA jurisdictions.

We conducted interviews, researched databases, and examined documents to determine
whether the MCF Commanders were completing the required notifications. We found
all of the Services had systems in place and were completing the notifications to the
best of their abilities.

	 5	
       Figures obtained from the Services’ annual submission of prisoner populations on DD Form 2720, “Annual
       Confinement Report.”




                                                                                                                DODIG-2014-103 │ 5
Finding A



                 All of the Services’ MCFs notify the appropriate jurisdictions through mail.   Some
                 MCFs follow up with e-mails and telephone calls to confirm receipt.

                 The Office of Navy Corrections and Programs effectively automates its notification
                 reminders by producing a weekly work-flow tickler report informing MCF Commanders
                 of any incoming inmates with SORNA, Victim Witness Assistance Program, or
                 Deoxyribonucleic acid (DNA) reporting requirements.  It is generated from the
                 Corrections Management Information System (CORMIS).




                     Figure 2. Army Correctional Facility Housing Area.
                     Source: U.S. Army Corrections Command, Alexandria, VA.



                 Notifications to Victims Witnesses by Military
                 Correctional Facilities
                 DoDI 1030.2, “Victim Witness Assistance Procedures,” June 4, 2004, mandates the
                 notification of victims and witnesses, who elect to be notified, of a change in their
                 offender’s status. Based on the Services’ annual confinement reports for 2011 and
                 2012, the total number of military prisoners with victim notification requirements
                 was 1,696 in 2011 and 1,555 in 2012. In 2011, a total 4,581 victims and witnesses




6 │ DODIG-2014-103
                                                                                                                                       Finding A



elected to be notified of a change in their offender’s status. This total remained fairly
constant in 2012 with 4,711 victims and witnesses electing to be notified. The total
number of status changes requiring notifications in 2011 was 4,576, significantly
increasing in 2012, with 8,148 status changes.6


State and Local Law Enforcement
We interviewed State and local law enforcement officials near military installations
in California, Mississippi, Texas, and Virginia, to discuss the processes for registering
military sex offenders before release from MCFs, and to evaluate the Department’s
notification process to Federal, State, and local registration offices when a military sex
offender is released from a MCF or is convicted of a QMO but not confined. State and
local law enforcement officials in these jurisdictions had received the DD Form 2791
from MCFs to register offenders.

A Killeen Police Department (KPD) official in Killeen, Texas, advised they had difficulty
getting copies of military sex offender conviction data. KPD personnel also had trouble
aligning military sex offense convictions with the Texas Code of Criminal Procedure.
When KPD had difficulty matching a military offense with the Texas Code of Criminal
Procedure, they contacted a Texas Department of Public Safety (DPS) Staff Attorney
to determine the appropriate statute.                          KPD officials told us military sex offenders
reported to KPD to register with no prior coordination or notification. Once military
sex offenders reported to KPD, they informed them of their obligation to also register
with the Provost Marshal Office (PMO).

The KPD official estimated they account for in excess of 100 military-affiliated sex
offenders. KPD registers all sex offenders residing on Fort Hood. KPD expressed
concerns about a military contractor who employs convicted sex offenders in positions
requiring access to Fort Hood. KPD also told us a general contractor providing food
service employed several sex offenders who worked on Fort Hood. We conducted
an Internet query of the Texas DPS public sex offender registry with the zip code
“76544” (Fort Hood, Texas), as well as zip code queries of the adjoining counties of
Bell and Coryell, Texas. The results confirmed numerous DoD members associated
with Fort Hood, Texas, were registered as sex offenders with the State. The query
highlighted KPDs concerns about the number of sex offenders on Fort Hood. We passed
this information to Fort Hood law enforcement.



	 6	
       No explanation for the significant increase in notifications between 2011 and 2012 was provided on the Services’ annual
       confinement reports.




                                                                                                                                 DODIG-2014-103 │ 7
Finding A



                 A Leavenworth County Sheriff’s Office official, told us they rarely communicated
                 with Fort Leavenworth law enforcement officials about registering military or DoD
                 affiliated sex offenders. According to the officer, all sex offenders (civilian and military)
                 must register in the State within 3 days of trial if no post-conviction confinement
                 is ordered. The official said registered sex offenders must notify law enforcement in
                 the county prior to leaving the State; Kansas will then send a message to the gaining
                 State and local police agencies with details of the offender’s movement plans.

                 A Universal City Police Department (UCPD) official in Universal City, Texas, expressed
                 concerns, mostly stemming from difficulty accessing the base, to account for registered
                 sex offenders on Joint Base San Antonio Randolph (JBSAR), Texas. The UCPD officer
                 explained approximately 18-24 months ago (as of March 2013), they were contacted
                 by a U.S. Federal Parole Officer attempting to access JBSAR, Texas, to conduct a check
                 of a military dependent registered as a sex offender. UCPD reported the Air Force
                 Security Forces Squadron did not allow the parole officer entry to JBSAR to make
                 contact with the offender who failed to register. A member of the Air Force Security
                 Forces Squadron claimed JBSAR fell under exclusive Federal jurisdiction and did not
                 grant the parole officer entry. According to a Texas DPS official, UCPD no longer
                 pursued efforts to track down and contact military sex offenders affiliated with
                 JBSAR due to the difficulty with installation access. The issue was resolved when the
                 military commander had the family member move off of JBSAR.


                 Documentation of Sex Offender Convictions and
                 Registration Requirements
                 In accordance with Rules for Courts-Martial, Chapter XI, Rule 1101, “Post-Trial
                 Procedure,” “after final adjournment of the court-martial in a case, the trial counsel
                 shall promptly notify the accused’s immediate commander, the convening authority
                 or the convening authority’s designee, and, if appropriate, the officer in charge of the
                 confinement facility of the findings and sentence.”

                 Military corrections officials use the ROT to determine if sex offender registration and
                 victim and witness notifications are required. The DD Form 2707-1 (See Appendix F),
                 and other similar forms specific to the Services, document whether offender convictions
                 require sex offender registration. The DD Form 2707-1 is referenced in DoDI 1325.07;
                 however, guidance for its use within the Department is not specifically addressed.




8 │ DODIG-2014-103
                                                                                              Finding A



The Navy and the Marine Corps do not use the DD Form 2701-1 to document results
of trial, but use a Service-specific memorandum format. Navy JAG Instruction 5800.7F,
“Manual of the Judge Advocate General,” June 26, 2012, mandates that:

            After adjournment of a court-martial, the trial counsel or summary
            court martial officer, as appropriate, will promptly notify the convening
            authority and the accused’s CO [commanding officer] of the findings
            and sentence. If the sentence includes confinement, notification shall
            be in writing in the form prescribed in Appendix A-1-q [Report of
            Result of Trial] , completed so as to contain all applicable information,
            and a copy forwarded to the CO or OIC [officer in charge] of the brig or
            confinement facility in which the accused is to be confined.


ROTs in the Marine Corps are annotated to reflect sex offender registration requirements.
Thereafter, corrections officials handle required notifications.

Army Regulation (AR) 27-10, “Legal Services Military Justice,” October 3, 2011, requires
“the trial counsel or SCM [summary court-martial] will prepare a report of the result of
trial at the end of the court-martial proceedings.” Additionally, the regulation requires
that “post-trial prisoners who are transferred to the U.S. Disciplinary Barracks (USDB),
[Fort Leavenworth, Kansas, or other military corrections system facilities] must carry
a copy of the [Department of the Army] Form 4430 [Department of the Army Report
of Result of Trial].”

Air Force Instruction 51-201, “Administration of Military Justice,” February 3, 2010,
requires “when an inmate (with or without a punitive separation) is transferred into the
Air Force Corrections System, the servicing SJA sends . . . [o]ne copy of the ROT [record
of trial] to the corrections officer, if the approved confinement is one year or more.”
Air Force SJAs are required to publish results of trial on the Air Force (AF) Form 1359,
“Report of Result of Trial.”      For QMO convictions, AF Forms 1359 are annotated
“Sex Offender Notification Required.” We noted the AF Form 1359, unlike the DoD
and Army forms, does not contain check boxes to identify sex offender registration
requirements. Special handling procedures for sex offenders are documented in the
“Sentence” block of AF Form 1359, where specific actions are annotated, such as
DNA processing or sex offender notification. There are no requirements for Judge
Advocates (JA) to confirm registration.




                                                                                        DODIG-2014-103 │ 9
Finding A



                 (2) Improved processes would promote more efficient
                 compliance with SORNA.
                 Standardized Report of Results of Trial (ROT)
                 Properly annotated ROTs facilitate sex offender notification compliance. Inadequate
                 documentation of QMO registration requirements was a concern at all correctional
                 facilities throughout the Services. When sex offender registration requirements are
                 not annotated on the Service’s derived ROT forms, corrections officials struggle
                 to determine if the conviction meets sex offender registration requirements. MCP
                 officials stated the ROTs prepared by SJAs are often vague, lacking clear descriptions
                 of QMO charges or conviction specifications, and do not clearly document sex offender
                 registration requirements.

                 An Army corrections official stated MCF personnel contact JAs to obtain clarification
                 of registration requirements when necessary; however, when contact is not possible,
                 the burden to interpret legal language is left to MCF personnel.                                                 Marine Corps
                 corrections officials also contact the originating trial counsel to obtain clarification of
                 charges depicted on the ROT. A misinterpreted ROT at an Air Force minimum security
                 MCF resulted in the erroneous registration of a former inmate who had not been
                 convicted of a QMO. The registration had to be reversed after the MCF official learned
                 of the error.

                 An Army SJA recommended the Army add a “Sex Offender Registration Required”
                 caveat to the top of the court-martial promulgating order7 similar to “DNA Processing
                 Required” found on the confinement order. He stated this would enhance sex offender
                 registration and notification in the Army.


                 Military Corrections Data Management
                 A more cohesive, interoperable MCF database system would further promote efficient
                 compliance with SORNA. According to DoDD 1325.04, “corrections programs shall
                 promote uniformity in and among the Military Services in . . . the operation and
                 administration of correctional facilities and programs . . .” The Army, Navy, and Marine
                 Corps have electronic corrections information databases to maintain prisoner records
                 and document offender notifications. However, those databases do not interface with
                 one another or with other components of the Services’ justice information systems.
                 The Army uses the Army Corrections Information System and the Navy and Marine

                 	 7	
                        Army Regulation 27-10, “Military Justice,” states “(a)n initial promulgating order is used to promulgate the results of trial
                        by a [General Courts Martial] or [Special Courts Martial] and the initial action of the convening authority thereon.”




10 │ DODIG-2014-103
                                                                                                      Finding A



Corps use the CORMIS to collect prisoner data. If a prisoner transfers to a medium
or maximum security facility outside of the Navy or Marine Corps, all documents
are transferred “hardcopy” with the prisoner.                  The Air Force does not maintain a
centralized corrections database. Air Force MCFs input sex offender data into the
Security Forces Management Information System. Air Force prisoners’ records are
placed in double-sealed envelopes and are transferred with the prisoner to the
gaining MCF.      A DoD centralized database would significantly aid in efficient and
effective compliance with SORNA requirements.




 Figure 3. U.S. Naval Consolidated Brig, Miramar, CA.
 Source: Office of Navy Corrections and Programs, Millington, TN.




Conclusion
(1) DoD is Compliant with SORNA
We concluded all of the Services had systems in place and were completing
required SORNA notifications to the best of their ability.                DoDI 1325.07 requires
MCF Commanders to inform offenders of registration requirements upon release
from confinement using the DD Form 2791, “Notice of Release/Acknowledgement of
Convicted Sex Offender Registration Requirements,” or an equivalent. It also requires
MCF Commanders to provide release notifications to appropriate Federal agencies




                                                                                               DODIG-2014-103 │ 11
Finding A



                 and SORNA jurisdictions. Based on interviews of MCFs and State and local officials
                 and reviews of documentation received as part of data calls, the Department is in
                 compliance with required notifications.


                 (2) Improved Processes Would Promote More Efficient
                 Compliance with SORNA
                 The Services have divergent programs to comply with SORNA requirements, which
                 could be better aligned with the intent of DoDD 1325.04 of promoting uniformity in
                 the DoD corrections system. The proper annotation of ROT and clearly documented
                 confinement orders with sex offender registration requirements is critical to sex
                 offender and victim-witness notification. Standardizing and centralizing the information
                 will promote more efficient compliance with the SORNA. There is no DoD policy
                 requiring the Services to use the DD Form 2701-1 to document ROTs and none of the
                 Services use this form. Each Service has created its own form to identify sex offender
                 registration requirements. The use of a common form by all Services will enhance
                 the ability of MCF personnel to properly administer sex offender and victim-witness
                 notification requirements, specifically with cross-service confinement of military
                 prisoners. Because Service members convicted of QMOs, and sentenced to military
                 confinement may not serve confinement in an MCF managed by their respective
                 Service, military corrections data management interoperability should also extend to
                 their information management systems.


                 Recommendations, Management Comments, and
                 Our Response
                 Secretary of the Army Comments
                 SECARMY provided several comments to Finding A draft report body (p.7, para 1, p. 8,
                 para 2, p. 9, para 3, and p. 11 para 2).


                 Our Response
                 SECARMY comments did not result in changes to Finding A. Details of the Army’s
                 comments can be found in the Management Comments section of this report.




12 │ DODIG-2014-103
                                                                                               Finding A



Recommendations
Recommendation A.1
We recommend the Under Secretary of Defense for Personnel and Readiness
revise Department of Defense policy to require the use of DD-Form 2707-1,
“DoD Report of Results of Trial,” to notify commanders of military confinement
facilities of the results of trials, and not Service-derived forms.


Under Secretary of Defense for Personnel and Readiness Comments
USD P&R concurred with recommendation A.1 with one comment:

The Office of Legal Policy, OUSD(P&R) will work with the Joint Service Committee
of Military Justice, and Military Services criminal law experts to ensure that
DD Form 2707-1 meets the requirements of Military Service judge advocates as
well as military confinement facilities, to clearly report results of trial which require
sex offender registration. Based on these revisions, DD Form 2707-1 will replace
Service-derived forms.


Our Response
The management comment from USD P&R was responsive.


Recommendation A.2
We recommend Secretaries of the Military Departments require the Services’
Judge Advocate Generals implement quality control measures to ensure
DD Forms 2707-1, “DoD Report of Results of Trial,” are completed and orders
promulgating the result of trial to clearly annotate sex offender registration
requirements when offenders are convicted of qualifying military offenses.


Secretaries of the Military Departments
The Secretaries of the Army and Navy did not comment on recommendation A.2.
The Secretary of the Air Force concurred with recommendation A.2.


Our Response
We request the Secretaries of the Army and Navy comment on recommendation A.2.




                                                                                        DODIG-2014-103 │ 13
Finding A



                 Recommendation A.3
                 We recommend the Under Secretary of Defense for Personnel and Readiness and
                 the Secretaries of the Military Departments consider a plan to move the Services’
                 military confinement programs to a common military corrections management
                 information system. We recommend system interconnection with the Services’
                 judge advocates and law enforcement systems to efficiently transmit results of
                 trials to confinement facilities and other justice system components.


                 Under Secretary of Defense for Personnel and Readiness Comments
                 USD P&R partially concurred with recommendation A.3 with one comment:

                 Criminal justice information sharing within the Department’s law enforcement
                 agencies is a high priority. Specifically, this includes the fielding of the Law Enforcement
                 Defense Data Exchange (D-DEx), a system that allows all law enforcement agencies
                 in DoD to share their respective criminal justice information with one another.
                 Three quarters of DoD’s law enforcement agencies are participating in the new system,
                 with a target of D-DEx being fully operational by the end of calendar year 2014.

                 Corrections information is processed as criminal justice information, either contained
                 in the Services’ law enforcement record management systems or as a stand-alone
                 system, in the case of the Navy (to be tied into other Navy LE systems through
                 the Navy Justice Information System, under development). Consequently, there is
                 no need to create a new corrections management information system when the
                 inherent information is already part of systems sharing data in D-DEx. The solution
                 to better corrections data sharing across the Department of Defense therefore lies in
                 customizing portions of D-DEx to meet the needs of the corrections community.
                 The D-DEx Program Management Office will be tasked to develop a solution to the
                 corrections communities’ information sharing needs as part of D-DEx.




14 │ DODIG-2014-103
                                                                                           Finding A



Our Response
The management comment from USD P&R was responsive. We did not adjust the
recommendation, but include information provided by USD P&R on D-DEx and their
proposed solution to meet the intent of recommendation A.3.


Secretaries of the Military Departments
The Secretaries of the Military Departments did not comment on recommendation A.3.


Our Response
We request the Secretaries of the Military Departments comment on recommendation A.3.




                                                                                    DODIG-2014-103 │ 15
Finding B




                 Finding B
                 The lack of jurisdiction for DoD to register military
                 sex offenders with the National Sex Offender
                 Registry enables military sex offenders released
                 from military prisons to evade sex offender
                 registration requirements.
                 The Department is not a SORNA jurisdiction and has no legislated authority to
                 register sex offenders or create a database that feeds into the National Sex Offender
                 Public Website to account for DoD-affiliated sex offenders. The Department relies on
                 adjacent SORNA jurisdictions to register Service members convicted of QMOs. The
                 inability to register sex offenders before release from military confinement enables
                 offenders to evade registration.



                 SORNA Jurisdictions
                 According to the National Guidelines, only SORNA jurisdictions may participate in
                 the National Sex Offender Public Website (NSOPW) and register sex offenders for
                 qualifying offenses in the NSOR.      SORNA jurisdictions include the 50 States, the
                 District of Columbia, the five principal U.S. territories, and federally recognized
                 Indian tribes that elect to function as registration jurisdictions. SORNA jurisdictions
                 do not include the Military Services, MCFs, counties, cities, towns, or other political
                 subdivisions located within states, tribes, or territories. DoD is not a SORNA jurisdiction
                 and therefore, relies on SORNA jurisdictions to register DoD sex offenders on its
                 behalf. Service corrections officials, military, State and local law enforcement, as well
                 as subject matter experts believe DoD needs a sex offender registry similar to those
                 operated by SORNA jurisdictions in support of the Congressional intent of SORNA.8
                 DoD is unique in that although its facilities lie within recognized SORNA jurisdictions
                 (unless overseas), it has its own law enforcement, judicial, and corrections systems
                 unlike other Federal agencies.


                 Military Corrections Programs
                 We interviewed Army, Air Force, Navy, and Marine Corps corrections officials. They
                 told us the current system of registration can be improved if military inmates were


                 	 8	
                        See note 1, supra.




16 │ DODIG-2014-103
                                                                                                 Finding B



registered while in confinement. The system currently relies on making notifications
to inmates of their registration requirements (and relying on them to comply), then
placing the burden on SORNA jurisdictions and the National Sex Offender Targeting
Center (NSOTC) when they fail to do so. This proposed registration method would
require inmates released from MCFs to be entered into the NSOR prior to their release
from an MCF.     Should the inmate fail to report to the gaining jurisdiction in the
established timeframe, they would immediately be violating SORNA compliance.
However, all of the inmates’ information would be readily available in the NSOR for
the NSTOC to track absconders.

In addition to interviewing corrections officials from each of the Services, we also
interviewed the Services’ Clemency and Parole Boards, Law Enforcement Activities,
including officials of the Military Criminal Investigation Organizations (MCIOs), JAs,
State and local law enforcement, and the NSOTC to assess current SORNA practices.

Our research disclosed:

        •	 Current processes at correctional facilities, which rely on gaining jurisdictions
           registering military sex offenders post-release from confinement, enable
           some inmates to circumvent registration requirements;

        •	 Sex offenders released from MCFs fabricate registration addresses or
           deviate from proposed residential plans;

        •	 Some sex offenders cannot give legitimate residential addresses after release.
           For example, a unit commander allowed a former inmate once assigned to
           his unit to use the commander’s personal address for SORNA registration.
           Based on the address, the MCF made SORNA notifications requiring the
           offender to register. The inmate failed to register and absconded.

        •	 There is no registration verification for sex offenders released from MCFs.
           On occasion, MCF officials check the NSOPW, which is not equivalent to
           checking the NSOR; and

        •	 A State official expressed concerns that military sex offenders confined in
           MCFs, residing in their States, were not registered.

Additionally, our research revealed if DoD were to obtain the authority to register
military sex offenders in the NSOR, maintain a DoD sex offender public website, and
participate in the NSOPW it would result in:




                                                                                          DODIG-2014-103 │ 17
Finding B



                         •	 Offender registration while confined, precluding inmates circumventing
                            registration.

                         •	 Registration upon confinement accomplished electronically would minimize
                            time dedicated to coordinating with an offender’s gaining State.

                         •	 A DoD registry feeding into the NSOR would aid in registration verification.

                         •	 If an offender failed to register, MCFs could immediately notify the NSOTC.

                 Service Clemency and Parole Boards
                 We discussed current SORNA requirements and DoD policies for registering military sex
                 offenders with the Military Services’ Clemency and Parole Boards.

                 Army sexual offenders approved for release on parole or mandatory supervised
                 release (MSR) before their maximum release date are supervised by a U.S. Probation
                 Officer (USPO), and their activities are regulated based on their approved supervision
                 plan and conditions. Navy and Marine Corps sex offenders are subject to military
                 oversight by their respective Service clemency and parole board until their maximum
                 release date. Once these sex offenders reach their maximum release date, they are
                 no longer under military control and the Naval Clemency and Parole Board (NCPB)
                 have no further oversight. When a Navy or Marine Corps sex offender reaches a
                 minimum release date they are placed in an MSR program, unless an offender does
                 not have a signed and approved treatment and post-release plan. To be considered
                 for MSR, an offender must have an approved release plan, residency information, a
                 treatment plan, and, if applicable, pending school information. These requirements
                 result in a number of sex offenders who elect to serve their full sentence in military
                 confinement.    Offenders opt to remain in confinement to avoid USPO parole
                 supervision and mandatory-imposed sex offender registration. However, if MSR is
                 approved, the inmate is released and must register as a sex offender within 24 hours.
                 If they fail to register, the Board issues a warrant on DD Form 553, “Deserter/Absentee
                 Wanted by the Armed Forces,” and the responsible parole and probation officer
                 executes the warrant, returning the military sex offender to serve the remainder of
                 his/her sentence.

                 Navy and Air Force Clemency and Parole Boards do not receive SORNA registration
                 confirmation from Federal, State, or local law enforcement once a military sex offender
                 is released from confinement and undergoes USPO supervision. In the Army, offender
                 supervision conditions are incorporated in the parole and MSR plans. Army board




18 │ DODIG-2014-103
                                                                                               Finding B



officials contact the USPO 3 to 4 months after a military sex offenders’ release to
confirm registration and treatment status, and respond to queries from the NSOTC.

As of March 2013, the NCPB monitored 140 offenders, approximately 70 percent of
which were convicted sex offenders. USPO supervision for these offenders promoted
compliance with the conditions of their release. Based on Navy estimates, approximately
80 Navy sex offenders were released under supervision in 2012, and a total of
40 supervision revocations were processed as a result of sex offenders failing to
comply with the terms of their release.


U.S. Marshals Service (USMS) National Sex Offender Targeting
Center (NSOTC)
The NSOTC is working in conjunction with the National Center for Missing and
Exploited Children and military, Federal, State, and local law enforcement to ensure
military offenders are registered, or if in violation, are located and held accountable.
In November 2010, the NSOTC began an initiative to identify, locate, register, or
apprehend convicted sex offenders who failed to comply with registration requirements
following discharge from the U.S. Military. This initiative, titled “Operation Tarnished
Service,” identified former Service members convicted of a QMO while on active
duty. Subsequent to their arrest, these offenders failed to comply with registration
requirements of the State they resided in. The NSOTC is notified when a military sex
offender is released from confinement via a DD Form 2791. In a memorandum dated
January 31, 2013, the Chief Inspector, USMS at the NSOTC explained:

           One month after the offender’s release, the Targeting Center conducts
           an assessment of the offender’s registration by querying the National
           Sex Offender Registry. If the offender is found to be non-compliant,
           his/her information is sent to a Deputy U.S. Marshal in the field to
           conduct a preliminary investigation into the circumstances of the
           offender’s non-compliance. If the offender is found to be non-compliant
           with their requirement to register as a sex offender, then a case is
           opened against them that may lead to a prosecution under the Adam
           Walsh Act.


Additionally, the NSOTC provided the following quarterly assessment:

           During the first quarter of FY 2013, the NSOTC received 197 notices
           of release of military sex offenders from military corrections facilities.
           109 (55%) were found to be compliant (registered in accordance with
           the AWA/SORNA), 39 (20%) were found to be non-compliant and
           46 (23%) are still pending assessment.




                                                                                        DODIG-2014-103 │ 19
Finding B



                 According to a memorandum dated January 11, 2013, the Army Interagency Fellow at
                 the NSOTC made the following recommendation:

                                    The DoD should develop and implement a Sex Offender Registry
                                    component (unit, team, division, section) at the installation level
                                    which would be responsible for managing a military/dependent sex
                                    offender registry and would use national, state, and local sex offender
                                    registries to vet/screen contractors and civilians for employment
                                    and access on military installations. If implemented, the registry
                                    should be accessible by local, state, and federal law enforcement for
                                    investigative and periodic compliance assessment purposes.


                 State and Local Registration Officials
                 We also discussed with State and local officials the feasibility of registering
                 SORNA-eligible military sex offenders while still in confinement.                                           States varied on
                 registering sex offenders into the National Sex Offender Registry (NSOR) while still
                 in confinement.

                                •	 The Virginia State Police (VSP) indicated all sex offenders should register
                                    upon arrival in Virginia and should also include military sex offenders
                                    confined in MCFs located on DoD installations in Virginia. A VSP official
                                    told us if requested, they were adequately staffed to assist in registering
                                    military sex offenders at Virginia MCFs.

                                •	 A Texas DPS registration official explained some military offenses such
                                    as, “abusive sexual contact,”9 do not meet Texas criteria mandating sex
                                    offender registration; however, they would enter the offender into the NSOR
                                    if the ROT required registration.

                                •	 A State of Kansas official had previously contacted the Army correctional
                                    facility at Fort Leavenworth, inquiring why they did not register their
                                    military sex offenders while they were incarcerated at the facility which
                                    was physically located in Kansas. The official opined that if it is deemed
                                    legal, convicted military sex offenders could be entered into the National
                                    Sex Offender Registration Database, which would be easier than having to
                                    coordinate with the individual states which have not standardized their
                                    registration requirements among themselves. Notifications could be made
                                    electronically via the registration database selected, thereby saving time
                                    on mailing items via mail.

                 	 9	
                        Manual for Courts Martial 2012 Edition, UCMJ Article 120, “Rape and Sexual Assault Generally,” Article 120(h) abusive
                        sexual contact is intended to cover acts where the sexual contact was committed in the same manner as a sexual act.
                        If sexual contact constitutes “bodily harm” (any offensive touching), then it will be considered abusive sexual contact. 	




20 │ DODIG-2014-103
                                                                                              Finding B



Conclusion
SORNA mandates sex offenders maintain registration in the jurisdictions in which they
reside, work, or go to school. Current legislation does not recognize the Department
as a SORNA jurisdiction. As a result the Department depends on SORNA jurisdictions
to register DoD-affiliated sex offenders, upon their release from the MCF.

Although MCFs properly notify military sex offenders of the requirement to register
and properly notify gaining jurisdictions, as well as the NSOTC, many military prisoners
fail to register as required by law.


Recommendations, Management Comments, and
Our Response
Secretary of the Army Comments
Regarding the paragraph discussing service and clemency parole boards (p.15,
para 2 of the draft report), the SECARMY requested we revise the paragraph to read:
Army sexual offenders approved for release on parole or mandatory supervised release
(MSR) before their maximum release date are supervised by a U.S. Probation Officer
(USPO), and their activities are regulated based on their approved supervision plan
and conditions.


Our Response
We revised the referenced paragraph.


Recommendations
Recommendation B.1
We recommend the Under Secretary of Defense for Personnel and Readiness:

      1.	   Establish a sex offender registration coordinator at military
            correctional facilities to monitor and confirm inmates being released
            are registered as required, or upon failure, inform the National Sex
            Offender Targeting Center.




                                                                                       DODIG-2014-103 │ 21
Finding B



                 Under Secretary of Defense for Personnel and Readiness Comments
                 USD P&R concurred with recommendation B.1 with comment:

                 In accordance with DoD Directive (DoDD) 1325.04, “Confinement of Military Prisoners
                 and Administration of Military Correctional Programs and Facilities,” the DoD Corrections
                 Council serves as the focal point in the OSD for confinement matters, correctional
                 programs, and clemency and parole policies and procedures. Working through the DoD
                 Corrections Council, and based on the recommendations of Service military corrections
                 officials, we will create policy establishing a sex offender registration coordinator
                 at military correctional facilities to further enhance the effectiveness of current
                 initiatives in place.


                 Our Response
                 The management comment from USD P&R was responsive.


                 Secretary of the Army Comments
                 While not required to comment on this recommendation SECARMY requested we
                 revise the recommendation to read, “Ensure a sex offender registration coordinator is
                 appointed duties at each military correctional facility to monitor and confirm inmates
                 being released are registered as required, or upon failure to inform the National
                 Sex Offender Targeting Center.” The Army opined these duties do not require a full
                 time person; facilities are not adequately staffed to dedicate a person to this position
                 full-time. Limited DoD assets (funds and personnel) need to be properly managed to
                 maximize efficiency.


                 Our Response
                 We understand the limitations of budget and staffing but stand by the recommendation.
                 The recommendation does not require a full time, dedicated person; therefore we did
                 not adjust the recommendation but include the Army’s comment for clarity.




22 │ DODIG-2014-103
                                                                                              Finding B



Recommendation B.2
We recommend the Under Secretary of Defense for Personnel and Readiness:

     2.	   Undertake a study to determine the benefits of legislation to designate
           the Department as a Sex Offender Registration and Notification Act
           jurisdiction to establish responsibilities similar to existing jurisdictions.

Under Secretary of Defense for Personnel and Readiness Comments
USD P&R concurred with recommendation B.2 with comment:

The Defense Human Resource Activity’s Law Enforcement Policy and Support office will
conduct the recommended feasibility study.


Our Response
The management comment from USD P&R was responsive.




                                                                                       DODIG-2014-103 │ 23
Finding C




                 Finding C
                 (1) The Department lacks policies to implement SORNA
                 foreign travel guidelines.
                 Military exigencies may preclude a DoD affiliated sex offender’s ability to provide the
                 required advance notice, which may contribute to violations by affected individuals.
                 Such violations may reflect unfavorably on the Department. Therefore, DoD officials
                 and military commanders should be aware of the requirements as well as the
                 ramifications of official foreign travel for DoD affiliated registered sex offenders.


                 (2) The Department lacks policies to ensure offenders
                 convicted of sex offenses abroad register as sex
                 offenders upon their return to the United States.
                 There is no DoD policy regarding Service members convicted of sex offenses by
                 foreign governments. Service members returning to the United States from foreign
                 countries are not subject to the same scrutiny on re-entry as non-military personnel.
                 They are permitted entry exempt from visa and passport requirements and
                 immigration inspection when they present U.S. or NATO travel orders and a
                 military identification card. This allows DoD members to travel without INTERPOL
                 coordination. Policy is needed to ensure these personnel register as sex offenders
                 upon return to the United States.



                 (1) The Department lacks policies to implement SORNA
                 foreign travel guidelines
                 Registered sex offenders are required by 18 U.S.C. 2250(a)(2)(B) to notify the
                 appropriate SORNA jurisdiction of foreign travel. The Guidelines reflect: “[I]t is a
                 federal crime for a sex offender to travel in foreign commerce and knowingly fail
                 to register or update a registration as required by SORNA.”          This includes active-
                 duty military personnel who are registered as sex offenders. SORNA supplemental
                 guidelines, effective January 11, 2011, require jurisdictions to have sex offenders
                 “report international travel 21 days in advance of such travel and to submit
                 information concerning such travel to the appropriate Federal agencies and databases.”




24 │ DODIG-2014-103
                                                                                                                                           Finding C



According to the National Guidelines, “a sex offender who goes abroad may remain
subject in some respects to U.S. jurisdiction.” The guidelines provide the following
scenario:

                    a sex offender may be leaving to live on an overseas U.S. military
                    base, as a service member, dependent, or employee, or to work as
                    or for a U.S. military contractor in another country. In such cases,
                    notification about the individual’s status as a sex offender and intended
                    activities abroad is of interest to federal authorities, because
                    the presence of sex offenders implicates the same public safety
                    concerns in relation to communities abroad for which the United
                    States has responsibility (such as U.S. military base communities in
                    foreign countries) as it does in relation to communities within the
                    United States.


The scenario described above would apply to active-duty military personnel, military
dependents, and DoD employees who are registered as sex offenders with the SORNA
jurisdiction in which the person’s Continental United States (CONUS) assigned military
base is located, as well as U.S. military contractors in foreign countries.

Although, the notification requirement applies to the affected individual and not to
DoD, military exigencies may preclude a DoD affiliated sex offender’s ability to provide
the required advance notice and contribute to legal violations by affected individuals.
This could affect personnel readiness and reflect unfavorably on the Department
if it caused the individual to violate the law. The Department should always help
ensure compliance with law and avoid creating hardship in complying with statutory
requirements. Recently enacted legislation precludes enlistments and continued active
duty for registered sex offenders.10 Nonetheless, DoD officials and military commanders
should be aware of the requirements as well as the ramifications of official foreign
travel for DoD affiliated registered sex offenders.


(2) The Department lacks policies to ensure offenders
convicted of sex offenses abroad register as sex
offenders upon their return to the United States
According to the Army Interagency Fellow during his tenure at the NSOTC, “[S]ervice
members, military dependents, DoD contractors, and DoD civilians, who are convicted
of a sex offense by a host nation while assigned overseas, are not being accounted for

	 10	
        Air Force Guidance Memorandum for AFI 31-205, Air Force Corrections System, dated January 27, 2014, implements
        changes to the Air Force Return-to-Duty Program. “Applicants may not have a civilian or military conviction record of sex
        offenses or violent offenses.”	




                                                                                                                                    DODIG-2014-103 │ 25
Finding C



                 upon return to the United States by law enforcement or in any registry.” In addition,
                 host nations are not notifying the offender of SORNA registration requirements and
                 notifications are not being sent to U.S. law enforcement of the sex offender’s return to
                 the U.S. NSOTC encouraged the Department:

                            to require service members, military dependents, DoD contractors, and
                            DoD civilians who are convicted of a sex offense by the host nation
                            while assigned overseas to complete a DD Form 2791 (or equivalent
                            document) upon release from the host nation. Furthermore, the
                            DD Form 2791 and copies of the Results of Trial should be provided
                            to federal, state, and local law enforcement by the DoD.


                 Realistically, this would require DoD law enforcement, confinement, or legal personnel
                 to monitor the individual’s confinement and to prepare and process DD Forms 2791
                 upon their release.   For active duty military personnel, violations of sex offender
                 registration requirements are punishable under UCMJ, Art. 92.

                 Army military justice policy does require soldiers who are convicted by foreign
                 governments of equivalent or closely analogous QMOs to register with the installation
                 provost marshal and with the State and local officials. The servicing JA is responsible
                 for notifying the Soldier of the registration requirements within five duty days of
                 notice of a Soldier being convicted of an equivalent of a covered offense.

                 Air Force justice policy states that when Service members, military dependents,
                 DoD Contractors, and DoD Civilians are convicted of a sex offense while assigned
                 overseas by a host nation, servicing JA will notify the appropriate individuals of their
                 registration requirements.    The Air Force requires its JAs to ensure the offender
                 completes the DD Form 2791 upon release from the host nation. The policy also
                 suggests the DD Form 2791 and copies of the ROT should be provided to federal,
                 state, and local law enforcement by the DoD.

                 Navy policy does not address DoD members convicted of SORNA qualifying offenses
                 by a host country.

                 The International Criminal Police Organization (INTERPOL) recommended appropriate
                 DoD officials coordinate with the Department of State, American Citizenship Services,
                 who track all U.S citizens imprisoned outside of the United States, to identify inbound
                 DoD personnel found guilty of sexual offenses requiring SORNA registration.




26 │ DODIG-2014-103
                                                                                             Finding C



These measures are especially important because Service members returning to
the United States from foreign countries are not subject to the same scrutiny on
re-entry as non-military personnel.       According to INTERPOL, U.S. Armed Forces,
with support from the North Atlantic Treaty Organization (NATO) and outlined in
Status of Forces Agreements, are permitted entry exempt from visa and passport
requirements and immigration inspection when they present U.S. or NATO travel orders
and a military identification card. This allows Service members to travel without
INTERPOL coordination.

Additionally, the U.S. Department of Homeland Security screens Service members
entering the United States via official points of entry. Section 235.1(b)(3), Title 8,
Code of Federal Regulation, states:

           Any U.S. citizen member of the U.S. Armed Forces who is in the
           uniform of, or bears documents identifying him or her as a member of,
           such Armed Forces, and who is coming to or departing from the U.S.
           under official orders or permit of such Armed Forces, may present a
           military identification card and the official orders when entering the
           United States.


Conclusion
DoD needs policy guidelines which make commanders aware of the SORNA
requirements for foreign travel of military and other DoD affiliated registered sex
offenders so they understand the ramifications of foreign travel for these individuals.

DoD needs policy addressing the return of DoD personnel convicted of sex offenses
by foreign countries requiring registration under SORNA. Policy is needed mandating
notification to DoD personnel convicted of sex offenses by foreign countries of their
SORNA registration requirements, and to ensure the appropriate State and local law
enforcement officials and NSOTC are notified of returning offenders.




                                                                                      DODIG-2014-103 │ 27
Finding C



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation C
                 We recommend the Under Secretary of Defense for Personnel and Readiness
                 develop policy to:

                       1.	   Apprise Department of Defense officials and military commanders of
                             Sex Offender Registration and Notification Act requirements because
                             military exigencies may preclude a Department of Defense affiliated sex
                             offender’s ability to provide the required advance notice, which may
                             contribute to legal violations by affected individuals. Such violations
                             may reflect unfavorably on the Department. Therefore, Department
                             of Defense officials and military commanders should be aware of
                             the requirements as well as the ramifications of official foreign travel
                             for Department of Defense affiliated registered sex offenders.

                       2.	   Ensure Department of Defense affiliated personnel convicted of sex
                             offenses while overseas, for which registration in the United States
                             is required: (1) are notified of the requirement to register with the
                             appropriate jurisdiction; (2) ensure the appropriate State and local
                             law enforcement officials and the National Sex Offender Targeting
                             Center are notified of the offender’s return to the United States; and
                             (3) responsible officials complete DD Form 2791.

                 Under Secretary of Defense for Personnel and Readiness Comments
                 USD P&R concurred with recommendation C with one comment:

                 The policy to address these specific recommendations is currently under development
                 and being drafted into DoDI 5525.jj, “Registered Sex Offender Identification, Notification,
                 Monitoring, and Tracking in DoD.”


                 Our Response
                 The management comment from USD P&R was responsive.




28 │ DODIG-2014-103
                                                                                                Finding D




Finding D
The Department has little accountability of the
population of sex offenders with regular and periodic
access to DoD facilities. DoD lacks policy requiring
Military Departments to account for registered sex
offenders. This results in divergent efforts to account
for sex offenders on DoD installations.
DoD needs overarching policy to account for sex offenders among its population. The
Services have developed and undertaken divergent efforts to account for sex offenders,
including denial of access, registration, tracking and housing application procedures.



The Need for A DoD Sex Offender Registry
In June 2012, prior to deciding to undertake this evaluation, we interviewed the
Director, Defense Human Resources Activity (DHRA), Law Enforcement Policy and
Support (LEPS) (DHRA/LEPS). We learned there was no DoD entity with visibility
over the total number of registered sex offenders with access to DoD facilities.
Additionally, there was no formal accounting or tracking system in place to account for
this population.

In completing our field work we interviewed Military Service law enforcement
officials to determine the extent of their efforts to identify and account for and control
access of registered sex offenders to DoD installations to determine the need for a
DoD sex offender registry.

Army and Marine Corps law enforcement activity (LEA) officials recommended
the Department maintain a DoD-wide database of convicted sex offenders for law
enforcement use. A Marine Corps LEA official believed the database should include
a notification alert for the installation LEAs. According to an Army LEA official, the
database should integrate registering and updating the status of all sex offenders
directly into the NSOR.

An Army LEA official confirmed the Army accounts for military sexual offenders who
self-identify to the PMO, as directed in AR 190-45, “Military Police Law Enforcement
Reporting,” March 30, 2007. She explained the biggest challenge for installation law
enforcement is ensuring the offender is made aware of the requirement to register
with their command.


                                                                                         DODIG-2014-103 │ 29
Finding D



                 MCIO officials across all Services stated the Department could benefit from its own
                 SOR, as it would establish a method for DoD-wide management of sex offenders and
                 help in the investigative process.

                 An Air Force SJA stationed in Texas stated a SOR would be the best tool for accounting
                 of sex offenders, as it would provide a single DoD database for sex offender
                 management based on joint basing initiatives.


                 Proactive Initiatives to Identify and Account for Sex Offenders
                 DoD Policy. The DoD has no policy to account for sex offenders among its population.
                 In July 2013, the Director, DHRA/LEPS informed us of the plan to implement
                 the Identity Management Enterprise Services Architecture (IMESA) to provide
                 visibility over sex offenders on DoD installations. The Defense Installation Access
                 Control (DIAC) Joint Capabilities Technology Demonstration developed IMESA. IMESA’s
                 “primary purpose will be to vet the identities of everyone authorized to access a DoD
                 installation against DoD, Federal, State and local authoritative data sources.”    The
                 Director, DHRA/LEPS stated IMESA uses information from the Defense Enrollment
                 Eligibility Reporting System (DEERS), a DoD database containing information on
                 Service members, U.S.-sponsored foreign military, DoD and Uniformed Services,
                 civilians, and family members.       IMESA would compare names found in databases
                 against the NSOR, identifying registered sex offenders who request installation access.
                 In June 2013, the FBI granted DoD approval to compare IMESA data against the
                 NCIC NSOR file. Results of the queries will be provided to MCIOs and, after sanitizing
                 for law enforcement sensitive information, the information will be provided to
                 installation officials. This process was presented to the Defense Investigative
                 Organization Enterprise-Wide Working Group who concurred with the process.

                 The Director, DHRA/LEPS, told us the IMESA platform will aid the Department in
                 identifying sex offenders. He told us, if the Department became a jurisdiction, the
                 MCIOs could input military sex offender data into the NSOR at time of conviction.
                 This would ensure offenders are registered, regardless of whether confinement was
                 required. Further, this builds in a safeguard to prevent a military sex offender from
                 failing to register post-confinement; they would already be registered as a convicted
                 sex offender. Further, the Department will also need to develop standardized training
                 for compliance officers accounting for DoD sex offenders.

                 Army Policy.     Army Regulation (AR) 190-45, “Military Police Law Enforcement
                 Reporting,” March 30, 2007, and AR 27-10, “Legal Services Military Justice,”
                 October 3, 2011, require convicted soldiers to register with the installation’s PMO.



30 │ DODIG-2014-103
                                                                                              Finding D



AR 190-45 delineates procedures officials must follow to register sex offenders
applies to soldiers “who are convicted by court-martial for certain sexual offenses.”
AR 190-45 also “directs installation PMs/DESs [Provost Marshal/Director of Emergency
Services] to provide written notice to state and local law enforcement agencies
of the arrival of an offender to the local area so the registration process can be
completed.” Per AR 27-10, violations of registration requirements are punishable under
UCMJ, Art. 92.

PMOs are increasing efforts to notify commanders of sex offenders within their
commands. A PMO official at an Army installation in Texas told us the installation
Director of Emergency Services instituted a policy to notify every Brigade Commander
upon the arrival of a newly assigned military registered sex offender to their command.
The PMO then contacts Brigade Commanders once a quarter to monitor each
offender’s status. An installation law enforcement official at Fort Hood, Texas, told us
offender accountability records are maintained for five years. According to Fort Hood
officials, as of February, 2013, there were 13 registered sex offenders with access to
Fort Hood.

An Army installation official in Texas developed a sexual offender registration review
checklist to assist in processing sex offenders and maintain registration documents
for sex offenders associated with the installation.

Headquarters, U.S. Army Criminal Investigation Command (CID) in conjunction with the
Office of the Deputy Chief of Staff Army G-1, implemented a policy to identify active
duty convicted sex offenders. Information concerning the offender is forwarded to
commands for offenders not discharged from the Army as follows:

         •	 Army G-1 forwards a list to Headquarters, U.S. Army Criminal Investigation
             Division Command (HQUSACIDC) of soldiers assigned to various units
             throughout the Army.

         •	 HQUSACIDC runs a criminal history check on the list to identify those with
             founded criminal cases within the past 5 years and returns that information
             to Army G-1.

         •	 Army G-1 forwards the information to the gaining installation PMO.

         •	 The gaining PMO forwards the information to the soldier’s gaining
             commander.




                                                                                       DODIG-2014-103 │ 31
Finding D



                 Army Human Resources Command is tracking Soldier registered sex offenders by
                 coding them with an eligibility limiting assignment code. Quarterly updates of these
                 Soldiers with a qualifying sexual assault conviction are provided to the Army Human
                 Resources Command by the Office of the Deputy Chief of Staff, G-1, Office of the
                 Judge Advocate General, and the Office of the Provost Marshal General. Commanders
                 will use the information to ensure Soldiers are in compliance with sex offender
                 registration requirements. CID proposed developing a DoD SOR and linking it to
                 DEERS or the Department of Defense Employee Interactive Data System as they are
                 tied to each military members’ pay, finances, entitlements, and other programs, which
                 are routinely updated.

                 Air Force Policy.                The Secretary of the Air Force, through the Chief of Security
                 Forces, promulgated instruction intended to facilitate the removal of individual
                 offenders from Air Force installations.             Air Force Manual 31-201, “Security Forces
                 Administration and Reports”, August 28, 2009,11 highlighting the ability of installation
                 commanders to deny access to individuals under debarment authority. Regarding sex
                 offenders, the manual acknowledges there is no military sex offender registry and
                 states, “If the on-base housing unit sits on land that is subject to exclusive or concurrent
                 federal jurisdiction, the installation commander can enforce the state sex offender
                 registration laws,” and there are no conditions that “. . . prevent the installation
                 commander from debarring a sex offender from base.”

                 Navy Policy.             The Secretary of the Navy requires “ . . . to the maximum extent
                 permitted by law or otherwise waived by competent authority, sex offenders are to
                 be identified and prohibited from access to DON [Department of the Navy] facilities.”
                 In SECNAV Memorandum, “Delegation of Authority to Issue Debarment Letters,”
                 June 11, 2008, the SECNAV also grants leadership the discretion to issue debarment
                 letters to registered sex offenders, prohibiting them from entering Navy and Marine
                 Corps installations worldwide.

                 Navy and Marine LEA officials have extensive policy regarding sex offender accounting
                 and access to Navy and Marine Corps installations including: Office of Naval
                 Operations (OPNAV) Instruction 1752.3, “Policy for Sex Offender Tracking, Assignment
                 and Access Restrictions Within the Navy,” May 27, 2009, SECNAV Memorandum for
                 Bar Letters (June 11, 2008), and SECNAV Instruction 5800.14A, “Notice of Release of
                 Military Offenders Convicted of Sex Offense,” May 24, 2005.



                 	11	
                        Certified current on February 26, 2014.




32 │ DODIG-2014-103
                                                                                                Finding D



The Norfolk LEA has taken an active approach in screening those requesting access
to Naval Station-Norfolk. The Norfolk LEA access screening division conducted checks
in 2012, and 774 visitors of 176,000 were identified as having committed a sexual
offense and were denied access. A Norfolk LEA official indicated three registered
sex offenders have waivers signed by the installation commander permitting entrance
to Norfolk and other Navy installations in the Norfolk area.

NCIS policy requires notification to state, local and foreign registration officials
under certain circumstances. According to Naval Investigative Service-3, Chapter 34,
“Sex Offenses,” September 2007.

           Some convicted sex offenders are required to register with local law
           enforcement authorities as a sex offender in their community. However,
           offenders do not always self-register as required . . . (t)here are
           exceptions that sometimes make it the responsibility of NCIS to make
           notification . . . the NCIS must ensure notifications are made, utilizing
           DD Form 2791 within 10 days of completion of judicial proceedings.


An official at an NCIS field office in Virginia stated that in addition to notifying local
and state registration officials, NCIS also forwards the DD Form 2791 to the U.S.
Marshals Service. An official at an NCIS field office in California explained the Naval
Investigative Service-3 which delineates NCIS’ responsibility for registering military
offenders convicted of sex offenses or crimes against minors, required modification to
make it clear whether notifications should be made to officials in the offender’s listed
home of record or at the installation where the offender was assigned, or to both.
An official at NCIS Headquarters, Quantico, Virginia, explained NCIS officials are not
required to validate an offender’s registration after conducting required notifications.


Assignment of Sex Offenders to Military Housing
DoD Policy. DoD Manual 4165.63-M, Encl. 2, para, 5(f) “DoD Housing Management,”
October 28, 2010, requires installation commanders to “[p]rovide DoD housing
consistent with Federal and State laws to impose registered sex offender residency
restrictions.” The manual allows use of DD Form 1746, “Application for Assignment
to Housing,” to be used for the purpose of ensuring Service members, their families,
and eligible civilians have access to suitable military housing and services. Neither
the Manual nor this form include any provisions for the disclosure by the applicant,
or the applicant’s family members or other family housing occupants to register as sex
offenders under any provision of law. However, the Military Services have instituted
policies for registered sex offenders regarding access to military-sponsored housing.




                                                                                         DODIG-2014-103 │ 33
Finding D



                 Army Policy.               AR 420-1, “Facilities Engineering Army Facilities Management,”
                 August 24, 2012, requires: all soldiers; family members; DoD civilian employees and
                 their family members; or civilians and their family members, who intend occupancy
                 of, or overnight visitation to, a Family housing dwelling unit, who are required to
                 register as a sex offender under any provision of law, to provide proof of registry
                 to the provost marshal’s office prior to occupancy. Failure to do so may result in
                 the host sponsor being evicted from housing. Applications for family housing will
                 be on DD Form 1746, “Application for Assignment to Housing,” September 1993.
                 Sponsors may request and receive approval from garrison commanders for a
                 “non-Family member” to reside in housing. Non-Family members who are registered
                 or who are required to register as sex offenders and intend occupancy of, or overnight
                 visitation to, a Family housing dwelling unit, are required to sign in at the provost
                 marshal’s office. Failure to do so may result in the host sponsor being evicted
                 from housing.

                 Navy Policy. The Navy and Marine Corps have the most restrictive guidance prohibiting
                 offenders from occupying Navy or Marine Corps owned, leased, or public-private
                 venture housing. Navy policy requires applicants for Navy owned, leased, or privatized
                 housing to certify under penalty of law neither the applicant nor any person living in
                 the household is a registered/convicted sex offender. The applicant also acknowledges
                 the requirement to notify the Navy Housing Office and the Installation Security Office
                 immediately if circumstances change making the certification no longer accurate.

                 Air Force Policy. Air Force installations require full disclosure from offenders applying
                 for military, government-managed, or privatized housing, as well as dependents
                 residing with military or civilian applicants who are required to register as a sex
                 offender.12         Applicants must complete an AF Form 4422, “Sex Offender Disclosure
                 and Acknowledgement,” to be considered for housing. The form notifies applicants
                 of disclosure requirements and records their sex offender status.                           Applications by
                 members who disclose they, or a member of their household is a registered sex
                 offender, must be coordinated with the local JA, Security Forces Squadron, and the Force
                 Support Squadron. The application is then forwarded to the Installation Commander
                 for approval.




                 	12	
                        Air Force Instruction (AFI) 32-6001, “Family Housing Management,” August 21, 2006.




34 │ DODIG-2014-103
                                                                                                                                         Finding D



Conclusions
The Department does not have a policy or a process established to maintain
accountability of registered sex offenders living and working on DoD facilities.
However, DHRA/LEPS is developing the policy (internally referred to as DoDI 5525.jj,
“Sex Offender Registration”) for sex offender identification, monitoring, and tracking
in DoD.13 The policy will take advantage of the DIAC Working Group’s development
of a vetting process at the Defense Manpower Data Center. The vetting process will
compare the DEERS data against law enforcement databases (NCIC/NSOR).                                                         The
results from this comparison will be managed by DoD law enforcement to meet
notification, monitoring and tracking requirements, and provide information to
respective Service leadership.

Absent overarching DoD guidelines, DHRA/LEPS and the Military Services have
undertaken numerous proactive initiatives to implement policies, procedures, and
programs to identify and account for sex offenders; however, these policies and
procedures are divergent and do not account for all sex offenders.14

The Services do not verify the veracity of military housing applicant’s declarations and
certifications Military members, family members and other family housing occupants
are registered or required to register as sex offenders.

DoD needs a SOR to account for sex offenders working, residing, and going to school
on DoD installations.


Recommendations, Management Comments, and
Our Response
Secretary of the Army Comments
Regarding Army proactive initiatives to identify and account for sex offenders, (p. 26,
para 3 of the draft report), the SECARMY requested we delete the statement, “another
Army installation official in North Carolina conducted monthly checks through the
NCIC and the Army Centralized Operations Police Suite and verified the home and
work addresses of registered offenders.” The Army explained the paragraph does not


	13	
        Email on DoDI 5525.jj, “Sex Offender Registration.pdf, pg. 1, dated September 25, 2013 from DHRA/LEPS Director.
	 14	
        Based on data call responses, the Defense agencies and DoD Field Activities do not have processes or policies to account
        for DoD sex offenders. The nature of the work performed by many Defense agencies and DoD Field Activities often
        requires their personnel to undergo personnel security investigations to include criminal background checks which would
        probably disclose prior sex offenses and sex offender status. DoD policy guidance should also consider and be applicable to
        the Defense agencies and DoD Field Activities to protect their personnel and activities.




                                                                                                                                  DODIG-2014-103 │ 35
Finding D



                 explain what authority this individual had to conduct these checks and “phishing” (sic)
                 expeditions for names of sex offenders through official law enforcement system[s] of
                 records which is not legally authorized under the Systems of Records Notice and the
                 Privacy Act, unless it is conducted for law enforcement purposes.

                 SECARMY also provided several comments to Finding D draft report body (p.26, para 1,
                 and 4, p. 27, para 1, and p.29, para 1).


                 Our Response
                 We omitted the paragraph cited in our draft report and notified pertinent Army
                 Officials for corrective action if appropriate. At the time, DoD IG officials had no basis
                 to question the propriety of the Army Official’s actions undertaken to enhance the
                 accountability of Army sex offenders.

                 The additional SECARMY comments to Finding D draft report body did not result in
                 changes to the report. Details of the Army’s comments can be found in the Management
                 Comments section of this report.


                 Recommendations
                 Recommendation D
                 We recommend the Under Secretary of Defense for Personnel and Readiness:

                       1.	   Develop overarching policy to require accounting for convicted and
                             registered sex offenders on Department of Defense facilities.            This
                             policy must establish a mechanism for the Services to verify offenders
                             comply with sex offender registration requirements, and for the
                             Services to verify the veracity of military housing applicant declarations
                             and certifications.

                       2.	   Develop policy to implement a Department of Defense Sex Offender
                             Management Program to ensure the Department is able to register
                             offenders living, working, or attending school on Department facilities.




36 │ DODIG-2014-103
                                                                                           Finding D



Under Secretary of Defense for Personnel and Readiness Comments
USD P&R concurred with recommendation D with one comment:

The policy to address these recommendations is under development and being
drafted into DoDI 5525.jj, “Registered Sex Offender Identification, Notification,
Monitoring, and Tracking in DoD.” Moreover, this policy will be supported by the
pending continuous vetting process which will identify DoD affiliated individuals who
are registered sex offenders and pass information to the appropriate Military Service
or Defense Agency for management. Directive-type Memorandum (DTMP 005-14,
“DoD Identity Management Capability Enterprise Services Application (IMESA) Access
to FBI National Crime Information Center (NCIC) Files,” published April 22, 2014,
authorizes this continuous vetting process.


Our Response
The management comment from USD P&R was responsive.




                                                                                    DODIG-2014-103 │ 37
Finding E




                 Finding E
                 The Department can better support efforts by Federal
                 counterparts and other agencies to account for
                 DoD-affiliated convicted sex offenders.
                 Agreements between the Department and other agencies involved in sex offender
                 management and tracking should be formally established to strengthen and increase
                 the effectiveness of sex offender registration and notification.

                 The Department works closely with federal agencies to identify and account for DoD
                 affiliated sex offenders such as the International Tracking of Sex Offenders Working
                 Group, the Office of Sex Offender Sentencing, Monitoring, Apprehending, Registering,
                 and Tracking, and the National Sex Offender Tracking Center; however, the Department
                 does not have a formalized sex offender management program. The Department can
                 benefit from formalizing relationships and information sharing networks with these
                 agencies as well as establishing a sex offender management program coordinator.



                 DoD Efforts to Work with Federal and International
                 Organizations
                 Federal law requires a system for informing the relevant jurisdictions about persons
                 entering the United States who are required to register as sex offenders. The National
                 Guidelines require the identification of sex offenders who are convicted in the
                 United States and travel abroad, and those convicted in foreign countries when
                 they enter or reenter the United States. This will require cooperative efforts by U.S.
                 and foreign authorities.     In response to the legal requirement to maintain the
                 aforementioned system, in 2008, DOJ created the International Tracking of Sex
                 Offenders Working Group comprised of representatives from DOJ (Sex Offender
                 Sentencing, Monitoring, Apprehending, Registering, and Tracking (SMART) Office),
                 Department of State, U.S. Department of Homeland Security, and DoD (DHRA/LEPS).
                 The Director, DHRA/LEPS continues to work with the International Tracking of
                 Sex Offenders Working Group, which is developing the Registered Sex Offender
                 International Tracking System, for tracking registered sex offenders who enter or depart
                 the United States.

                 Necessary parts of cooperative activities would include U.S. authorities informing
                 foreign authorities about sex offenders coming to their jurisdictions from the




38 │ DODIG-2014-103
                                                                                                                               Finding E



United States, and foreign authorities advising the United States about sex offenders
coming to the United States from their jurisdictions. To accomplish these cooperative
efforts, federal authorities in the United States will need information about sex
offenders leaving domestic jurisdictions to go abroad in order to effectively carry
out the requirements of SORNA § 128 and enforce 18 U.S.C. 2250(a)(2)(B).

The ITSOWG stresses the importance of information sharing between DOJ and DoD
regarding registered sex offenders who are either active duty military, dependents
living on military installations, civilian employees, or contractors working in Outside
the Continental United States locations.                        ITSOWG recognizes DoD is not a SORNA
jurisdiction, does not have a centralized direct conduit to NSOR, and is not authorized
to create a centralized sex offender registry.                          The ITSOWG will continue to work
with all relevant agencies to increase and improve information-sharing capacity.
This relationship is commendable and should assist in developing DoD policy guidance
to resolve findings identified in this report.

DoD has not established a formal relationship with the DOJ SMART Office other than
the ITSOWG. However, the SMART Office has provided training to DoD personnel
on SORNA requirements. The SMART Office has also assisted the Army and Navy
in developing policies for housing DoD sex offenders after the advent of privatized
military housing.

The SMART Office shared numerous inquiries received through its “Ask SMART”
program with OIG DoD evaluators.15                          Inquiries from various military departments
requested guidance on SORNA legal issues. SMART Office officials stated the inquiries
highlight the need for “an attorney to represent DoD,” or a DoD point of contact well-
versed in SORNA legal requirements. Overall, the SMART Office supports a closer
working relationship with DoD officials responsible for administration of SORNA.

Additionally, in 2010, the Army began to identify and monitor the Army sex offender
population. Army officials detailed an officer as part of a fellow program to the NSOTC.
As a result of the interagency actions, USD (P&R) revised DoDI 1325.07 instituting
mandatory notifications to NSOTC by all MCFs before the release of a prisoner convicted
of a QMO.16 The Army fellow monitors these notifications, identifies those who fail
to register, and coordinates with the USMS field elements to locate and investigate
noncompliant offenders.


	 15	
        Online submissions of SORNA-related questions to the SMART Office http://www.ojp.usdoj.gov/smart/contact.htm.
	 16	
        Offenses delineated in DoDI 1325.07, March 11, 2013, are also listed in Appendix C of this report.




                                                                                                                        DODIG-2014-103 │ 39
Finding E



                 All MCP officials had positive comments on the partnership in establishing the
                 Army fellow at NSOTC. An official at the U.S. Disciplinary Barracks, Fort Leavenworth,
                 Kansas, recommended the Department expand the program and create a DoD
                 Sex Offender Sentencing, Monitoring, Apprehending, Registering, and Tracking Office
                 to oversee DoD’s sex offender accountability and act as a conduit for DoD in sex
                 offender management.


                 INTERPOL
                 One of INTERPOL’s most important functions is to help police in its member countries
                 share critical crime-related information using a system of international notices.
                 Police can use INTERPOL notices to alert law enforcement in other countries of
                 potential threats, or to ask for assistance in solving crimes. INTERPOL uses various
                 types of notices including “Green Notices,” which are used to warn about a person’s
                 criminal activities if that person is considered to be a possible threat to public
                 safety. In 2004, as part of “Operation Predator” INTERPOL used Green Notices to
                 notify foreign countries when international travel was requested by a sex offender.
                 According to INTERPOL representatives, the United States views the issuance of Green
                 Notices as the Government’s responsibility to alert foreign authorities concerning
                 potentially dangerous individuals traveling internationally. INTERPOL recommended
                 DoD consider taking advantage of their Green Notice program for any DoD affiliated
                 sex offender traveling to and from overseas locations. We provide this information for
                 DoD policy consideration.


                 Conclusion
                 The Department does not have a formalized sex offender management program and
                 will require assistance in interpreting SORNA legal requirements, and developing
                 policy and training standards. The Department’s work with ITSOWG and the Army’s
                 interagency fellowship program with NSOTC are strong steps in the right direction.
                 The Department can benefit from formalizing relationships and information sharing
                 networks with agencies like the SMART Office and NSOTC that have programs in
                 place to help train agencies and give technical assistance on sex offender management.




40 │ DODIG-2014-103
                                                                                             Finding E



Recommendations, Management Comments, and
Our Response
Recommendation E.1
We recommend the Under Secretary of Defense for Personnel and Readiness:

     1.	   Establish assistance agreements with agencies involved in sex offender
           management and tracking such as the U.S. Marshals Service, and
           the Office of Sex Offender Sentencing, Monitoring, Apprehending,
           Registering, and Tracking to reinforce existing relationships and
           programs, such as the National Sex Offender Targeting Center Army
           fellowship program, and better account for Department of Defense-
           affiliated sex offenders.

Under Secretary of Defense for Personnel and Readiness Comments
USD P&R partially concurred with recommendation E.1 and provided one comment:

As noted in the draft report, the Department works directly and closely with both
organizations, as well as other federal and nongovernmental agencies. In 2010, NSOTC
began an initiative called Operation Tarnished Service to identify, locate, register,
and/or apprehend, former service members who fail to comply with registration
requirements following discharge from the military. Through this interagency
collaboration between Federal and local law enforcement officials, the Department
ensures all sex offenders released from military confinement, or discharged from
military service, register where they live, or face severe consequences. Agreements
are, and will be put in place when they are deemed necessary by both parties to
delineate joint responsibilities, resources, and programs. Creating agreements however,
without a mutually agreed-upon purpose, specific need, and understanding, will not
enhance these effective partnerships.


Our Response
The management comment from USD P&R was partially responsive. This evaluation
found that agencies such as the SMART Office, the NSOTC, and INTERPOL were
interested in formalizing relationships at the DoD level to aid the Department in
more proactively managing and monitoring the Department’s sex offender population.
Formally establishing Memorandums of Agreement or Memorandums of Understanding
or other assistance agreements delineating the services these agencies can and will
provide, ensures the Department is aware of these services and can quickly engage
these agencies when in need of such services.



                                                                                      DODIG-2014-103 │ 41
Finding E



                 Recommendation E.2
                 We recommend the Under Secretary of Defense for Personnel and Readiness:

                       2.	   Designate a Department of Defense sex offender management program
                             coordinator to serve as a liaison between the Department and other
                             Federal agencies to oversee the Department’s administration of sex
                             offender registration and notification issues.

                 Under Secretary of Defense for Personnel and Readiness Comments
                 USD P&R did not concur with recommendation E.2 and provided one comment:

                 Access to and use of conviction information is the responsibility of the Military
                 Services who have oversight for their assigned personnel and carry out necessary
                 personnel management, law enforcement, disciplinary, and judicial functions. Ensuring
                 each functional component (policy, program management, and operations) performs
                 its part of policy implementation is the key to a successful sex offender registration
                 and notification program, not combining them into one individual.             Specifically,
                 this recommendation mixes policy oversight, program oversight and management,
                 operational criminal justice information use, and interagency liaison and coordination
                 into one entity. At the management and interagency level, the program coordinator
                 is the office of primary responsibility for the policy, in this case OUSD (P&R). Unlike
                 the Military Services, however, OUSD(P&R) is not organized or equipped to function
                 effectively in this manner. For these reasons, OUSD (P&R) believes the Military
                 Services can most effectively carry out this mission.


                 Our Response
                 The management comment from USD P&R was responsive. Regarding recommendation
                 E.2 we found merit in designating a sex offender management program coordinator
                 at the Departmental level to serve as the point of contact for other agencies and the
                 Services based on feedback that a centralized coordinator would aid in funneling
                 requests for information and general questions about the DoD’s sex offender
                 management program.       We concur with the management comment submitted by
                 DHRA/LEPS via USD P&R that “access to and use of conviction information is the
                 responsibility of the Military Services who own the subject personnel and carry
                 out personnel management, law enforcement, and judicial functions.”           We revised
                 recommendation E.2 to omit the portion requiring the DoD sex offender management
                 program coordinator to have “access to conviction information,” as this official can reach
                 out the Services should they require this information. We do find merit in centralizing
                 sex offender policy oversight, program oversight and interagency liaison into one
                 entity, as currently these responsibilities are distributed throughout the Department.

42 │ DODIG-2014-103
                                                                                              Appendixes




Appendix A
Implementing SORNA
Federal Agencies
Office of the U.S. Attorney General
Within the Federal Government, the Office of the U.S. Attorney General (AG) is responsible
for issuing guidelines and interpreting and implementing SORNA. The AG is assisted
by other United States Department of Justice (DOJ) elements such as the Office of Sex
Offender Sentencing, Monitoring, Apprehending, Registering, and Tracking (SMART),
the USMS NSOTC, the U.S. Parole Commission, the Criminal Justice Information Service,
a division of the Federal Bureau of Investigation, and the U.S. Probation and Pretrial
Services. In addition to these DOJ elements, the U.S. Office of Personnel Management/
Federal Investigative Services and the INTERPOL, provide additional support to the sex
offender registration system.


Office of Sex Offender Sentencing, Monitoring, Apprehending, Registering,
and Tracking (SMART)
The Department of Justice established the SMART Office within the Office of Justice
Programs in response to the “Adam Walsh Child Protection and Safety Act of 2006.”
According to the SMART Office website, the office is authorized by law to:

          •	   administer the standards for the Sex Offender Registration and
               Notification Program set forth in Title 1 of the Adam Walsh Act;

          •	   administer grant programs relating to sex offender registration and
               notification authorized by the Adam Walsh Act and other grant
               programs authorized by the Adam Walsh Act as directed by the
               Attorney General;

          •	   cooperate with and provide technical assistance to states,
               the District of Columbia, principle U.S. territories, units of
               local government, tribal governments, and other public and
               private entities involved in activities related to sex offender
               registration or notification or to other measures for the
               protection of children or other members of the public from sexual
               abuse or exploitation; and

          •	   perform such other functions as the Attorney General may delegate.




                                                                                         DODIG-2014-103 │ 43
Appendixes



                 The SMART Office hosts the Dru Sjodin National Sex Offender Public Website (NSOPW),
                 which provides the public with access to sex offender data nationwide.

                             NSOPW is the only U.S. government Website that links public state,
                             territorial, and tribal sex offender registries from one national search
                             site. Parents, employers, and other concerned residents can utilize
                             the Website’s search tool to identify location information on sex
                             offenders residing, working, and attending school not only in their
                             own neighborhoods but in other nearby states and communities. In
                             addition, the Website provides visitors with information about sexual
                             abuse and how to protect themselves and loved ones from potential
                             victimization….NSOPW presents the most up-to-date information
                             as provided by each Jurisdiction. Information is hosted by each
                             Jurisdiction, not by NSOPW or the federal government. The search
                             criteria available for searches are limited to what each individual
                             Jurisdiction may provide. Search results should be verified by visiting
                             the providing Jurisdiction’s ‘Public Registry Website’ for further
                             information and/or guidance.


                 U.S. Marshals Service National Sex Offender Targeting Center
                 According to the “Adam Walsh Child Protection and Safety Act of 2006,” the USMS is
                 “to assist state, local, tribal, and territorial authorities in the location and apprehension
                 of non-compliant sex offenders; to investigate violations of the criminal provisions of
                 the Act (18 U.S.C. § 2250), and to identify and locate sex offenders displaced as a result
                 of a major disaster.”

                 In 2009, the NSOTC was created to support the USMS in meeting the requirements
                 of the “Adam Walsh Child Protection and Safety Act of 2006.” The NSOTC:

                             [F]unctions as an interagency intelligence and operations center to assist
                             with identifying, investigating, locating, apprehending, and prosecuting
                             non-compliant, unregistered fugitive sex offenders . . . collaborates with
                             the National Center for Missing and Exploited Children (NCMEC) and
                             the . . . (SMART Office) to support . . . law enforcement in pursuing
                             unregistered and non-compliant sex offenders.


                 Other Federal agencies are represented at the NSOTC, including the Department of the
                 Army. (See Finding D for further details of the Army’s involvement at NSOTC.)




44 │ DODIG-2014-103
                                                                                            Appendixes



U.S. Parole Commission
According to the U.S. Parole Commission’s (USPC) public website:

            [T]he mission of the U.S. Parole Commission is to promote Public Safety
            and strive for justice and fairness in the exercise of its authority to
            release, revoke and supervise offenders under its jurisdiction. Per the
            National Guidelines, “Federal sex offenders are also required to comply
            with the SORNA registration requirements as mandatory conditions
            of their federal probation, supervised release, or parole, as provided
            pursuant to amendments adopted by section 141(d)-(e), (j) of SORNA.”


Criminal Justice Information Services
According to the Criminal Justice Information Services (CJIS) website, its mission is
“to equip our law enforcement, national security, and intelligence community partners
with the criminal justice information they need to protect the United States while
preserving civil liberties.” CJIS was established in February 1992 and has become
the largest division within the Federal Bureau of Investigation (FBI) serving as the
agency’s central repository for criminal justice information services. The CJIS Division
oversees several programs to include: the National Crime Information Center (NCIC),
Uniform Crime Reporting (UCR), and Fingerprint Identification. The Division is also
responsible for various technological initiatives, including the Integrated Automated
Fingerprint Identification System (IAFIS), NCIC 2000, and the National Incident-Based
Reporting System (NIBRS).

According to the SMART Office in the August 2013 version of “Sex Offender Registration
and Notification in the United States: Current Case Law and Issues,” CJIS also maintains
the NSOR:

            The National Sex Offender Registry (NSOR) is a law-enforcement
            only database that is a file of the National Crime Information Center
            (NCIC) database managed by the Federal Bureau of Investigation
            Criminal Justice Information Services (CJIS) division. It was created
            in the late 1990s to store data on every registered sex offender in
            the United States, and to provide law enforcement access to that
            data nationwide.


U.S. Probation and Pretrial Services
According to its website, the U.S. Probation and Pretrial Services (PPS), “carries out
probation and pretrial services functions in the U.S. district courts.” According to a
DOJ Handbook titled, “Sex Offender Registration and Notification in the United States:




                                                                                       DODIG-2014-103 │ 45
Appendixes



                 Current Case Law and Issues,” July 2012, “part of the government’s involvement with
                 sex offenders who are required to register concerns the handling of those offenders
                 housed and subsequently discharged from federal correctional institutions.” The U.S.
                 Probation System conducts probation and pretrial services in the U.S. district courts.
                 U.S. Probation Officers (USPOs) work with offenders “post-conviction,” after they are
                 tried and found guilty of Federal crimes and released from prison. Federal Probation
                 Officers are required by 18 U.S.C. §4042(c) to notify state registration officials when a
                 Federal prisoner meeting SORNA registration requirements is released from custody.


                 U.S. Office of Personnel Management, Federal Investigative Services
                 According to its website, OPM-FIS “provides investigative products and services for
                 over 100 Federal agencies to use as the basis for suitability and security clearance
                 determinations as required by Executive Orders and other rules and regulations.”
                 OPM-FIS conducts initial and periodic reinvestigations that would identify an individual
                 convicted as a sex offender.


                 International Criminal Police Organization
                 INTERPOL is an international organization whose mission is to exchange police
                 information between law enforcement authorities of its 190 member countries.
                 INTERPOL gives investigative resources to its member-country law enforcement officials
                 and administers a system of international advisory notices. The color-coded notices
                 are issued by INTERPOL’s General Secretariat in Lyon, France and are distributed to
                 member-country law enforcement officials.       INTERPOL often queries the NSOR to
                 account for registered sex offenders traveling overseas. If an offender is not compliant
                 with SORNA, the information is forwarded to the USMS or the U.S. Department of
                 State for action.

                 INTERPOL Washington–U.S. National Central Bureau, a component of the U.S. DOJ, is
                 the point of contact for all INTERPOL matters involving the United States. INTERPOL’s
                 U.S. National Central Bureau is responsible for administering U.S. authorities’ access to
                 INTERPOL databases and seeking the issuance of all INTERPOL notices on behalf of
                 the United States and alerting U.S. authorities to the existence of INTERPOL notices.




46 │ DODIG-2014-103
                                                                                            Appendixes



Department of Defense
Within DoD, the Under Secretary of Defense for Personnel and Readiness (USD P&R)
and subordinate elements including the Office of Legal Policy, and the Defense Human
Resources Activity (DHRA), Law Enforcement Policy and Support (LEPS), develop DoD
policy to implement sex offender requirements. These USD P&R elements interface
with the Services’ judge advocates (SJA), Military Corrections Programs (MCP), and the
Services’ clemency and parole boards.


Under Secretary of Defense for Personnel and Readiness
According to its website, the USD (P&R) “is the principal staff assistant and advisor
to the Secretary and Deputy Secretary of Defense for Total Force Management as it
relates to readiness; National Guard and Reserve component affairs; health affairs;
training; and personnel requirements and management, including equal opportunity,
morale, welfare, recreation, and quality of life matters.”      USD (P&R) published
DoDI 1325.07, which provides departmental guidance on sex offender notification
requirements. An official from USD (P&R) Office of Legal Policy serves as the Chair
for the DoD Corrections Council.


Defense Human Resources Activity, Law Enforcement Policy and Support
According to its website, the DHRA/LEPS Office, “conducts policy oversight and
program management of law enforcement-related activities for the DoD, including
Trafficking of Persons, Missing and Exploited Children, Private Motor Vehicle Accident
Reduction, DoD Civilian Police Standards of Training, and National Law Enforcement
Data Sharing.” DHRA/LEPS maintains oversight responsibility for DoD sex offenders
when they travel outside of the Continental United States.         DHRA/LEPS is also
responsible for writing general law enforcement policy and for criminal data collection,
sharing and reporting.    A DHRA/LEPS official also serves on the SMART Office’s
ITSOWG. This same official also serves as the Chief Security Officer for DoD and
works with the FBI Criminal Justice Information Services Division (CJIS) Advisory
Policy Board.


Military Corrections Programs
The MCP is composed of the U.S. Army Corrections Command; Headquarters
U.S. Marine Corps, Plans, Policies, and Operations Department, Law Enforcement and
Corrections; Headquarters Air Force Security Forces Center, Corrections Division; and




                                                                                       DODIG-2014-103 │ 47
Appendixes



                 the Office of Navy Corrections and Programs. DoDI 1325.07 delineates “(c)orrectional
                 personnel responsible for the security and control of prisoners,” and requires that
                 MCFs “shall ensure Victim/Witness Assistance Program, DNA sample collection, and sex
                 offender registration and notification requirements are met.”


                 Service Judge Advocates
                 According to their respective websites, the Services’ Judge Advocate General Corps are
                 responsible for the defense and prosecution of military law according to the UCMJ.
                 Within the JAG Corps, SJAs serve as legal advisors to military commands on diverse
                 legal issues. SJAs provide the results of trials to the military confinement facilities,
                 which identify whether sex offender registration is required.


                 Service Clemency and Parole Boards
                 According to DoDI 1325.07, “(c)lemency and parole programs shall be administered
                 by the Military Departments to foster the safe and appropriate release of military
                 offenders under terms and conditions consistent with the needs of society, the rights
                 and interests of victims, and the rehabilitation of the prisoner.” The Army Clemency
                 and Parole Board, the Navy Clemency and Parole Board, and the Air Force Clemency
                 and Parole Board, consider military offenders from their respective Services for
                 clemency and parole.


                 U.S. Army Sexual Harassment/Assault Response Prevention Office
                 The U.S. Army SHARP Office conducts sex offender management in the Army and
                 maintains a record of registered sex offenders with access to Army installations.
                 SHARP also leads the Army Sex Offender Working Group composed of members from
                 the Army SHARP Office, U.S. Army Office of the Provost Marshal General, U.S. Army
                 Criminal Investigation Command, U.S. Army Office of the Judge Advocate General,
                 U.S. Army Human Resources Command, U.S. Army Department of Military Personnel
                 Management, Assistant Secretary of the Army (Manpower and Reserve Affairs),
                 U.S. Army Assistant Chief of Staff for Installation Management, and the U.S. Army
                 Installation Management Command.


                 U.S. Air Force Sexual Assault Prevention and Response Program
                 According to its website, the U.S. Air Force Sexual Assault Prevention and Response
                 (SAPR) Program “reinforces the Air Force’s commitment to eliminate incidents of
                 sexual assault through awareness and prevention training, education, victim advocacy,
                 response, reporting and accountability.”




48 │ DODIG-2014-103
                                                                                           Appendixes



U.S. Navy Sexual Assault Prevention and Response Program
According to its website, the mission of the U.S. Navy Sexual Assault Prevention and
Response (Navy SAPR) Program is to “prevent and respond to sexual assault, eliminating
it from our ranks through a balanced [sic] of focused education, comprehensive
response, compassionate advocacy, and just adjudication in order to promote
professionalism, respect, and trust, while preserving Navy mission readiness.”


U.S. Marine Corps Marine and Family Programs Division, Sexual Assault
Prevention and Response
According to its website, the U.S. Marine Corps Marine and Family Programs Division,
Sexual Assault Prevention and Response Program “is responsible for providing
policies, evidence-based prevention training, and oversight of victim-centric services.
The purpose of the SAPR Program is to eliminate incidents of sexual assault through
a comprehensive program that centers on awareness and prevention, training and
education, reporting, response, victim advocacy, and accountability.”


U.S. Transportation Command
According to its website, U.S. Transportation Command (USTRANSCOM) “is a unified,
functional combatant command which provides support to the eight other U.S.
combatant commands, the military services, defense agencies and other government
organizations.” According to the Defense Transportation Regulation (DTR) 4500.9-R,
Part I, “Passenger Movement,” “the Commander, United States Transportation
Command (USTRANSCOM) is the DOD single manager for transportation.” USTRANSCOM
is the proponent for the DTRs and the developer of the Global Air Transportation
Execution System, the Department’s transportation processing and management
system, which cross-checks flight manifests and passenger information against various
law enforcement databases to include the NSOR in NCIC.




                                                                                      DODIG-2014-103 │ 49
Appendixes




                 Appendix B
                 Scope and Methodology
                 We conducted this review from October 2012 through September 2013. We focused
                 on the Department’s accountability of DoD registered sex offenders (active duty,
                 reserve, National Guard, dependents, contractors, and U.S. Government (DoD)
                 employees). We evaluated the Department’s notification process to Federal officials
                 and State and local registration offices when a military sex offender is released
                 from a MCF or is convicted of QMOs but not confined. We reviewed the DoD and
                 Service processes for notifying victims and witnesses of changes in the status of
                 convicted sex offenders.                     We also evaluated Department and Service guidance
                 addressing sex offender requirements to ensure current policies and procedures meet
                 SORNA requirements.


                 Program Review
                 A data call was forwarded to the Services, Defense agencies,17 and DoD Field
                 Activities18 requesting the number of DoD registered sex offenders in their respective
                 commands, to include documentation of formal or informal procedures for maintaining
                 accountability of DoD sex offenders. We requested the MCP provide information on
                 inmates confined at MCF for QMOs for calendar years 2011-2012. We requested the
                 JAG provide a report of Service members convicted of sexual offenses requiring
                 sex offender registration, but not sentenced to confinement.                                          We evaluated the
                 processes used by JAs for notifying MCF Commanders or State and local officials of
                 military convictions for QMOs requiring sex offender registration. We analyzed all
                 of the responses to evaluate whether overall current Departmental processes were
                 in compliance with SORNA legislation and DoD policies. Results from our program
                 review are incorporated in the findings section of this report.


                 Policy Review
                 We reviewed DoD and Service guidance governing sex offender notification and
                 accountability to determine if the guidance aligned with SORNA requirements.




                 	 17	
                         Based on data call responses, we found the Defense agencies have no process or policy to account for DoD sex offenders.
                 	 18	
                         Defense agencies and Defense agencies and DoD Field Activities are delineated in DoDD 5100.1, “Functions of the
                         Department of Defense and Its Major Components,” December 21, 2010. Although outside the scope of this review we
                         found DoD Field Activities have no process or policy to account for DoD sex offenders.




50 │ DODIG-2014-103
                                                                                                      Appendixes



Interviews
We interviewed or attended briefings by subject-matter experts and knowledgeable
officials from the following agencies to assess DoD compliance with SORNA: DHRA/
LEPS, Army SHARP Office, MCP, MCF, JAG/JA, SMART Office, INTERPOL, USMS NSOTC,
USPO, Center for Sex Offender Management, OPM-FIS, DHS, and USTRANSCOM.
We interviewed sex offender notification officials to assess their victim and witness
notification processes.     We also interviewed military law enforcement officials to
identify their processes for accounting for sex offenders.                    We interviewed state
and local civilian law enforcement officials to discuss the processes for registering
military sex offenders before release from MCFs.


Site Visits
We conducted site visits to Level I and Level II MCFs in Charleston, South Carolina;
Chesapeake, Virginia; Norfolk, Virginia; Fort Leavenworth, Kansas; Miramar, California
and; Quantico, Virginia, in addition to the U.S. Disciplinary Barracks (USDB), Fort
Leavenworth, Kansas, which according to its website, is “the only maximum security
correctional facility in the Department of Defense.”




            Figure B-1. USDB, Fort Leavenworth, KS-A Maximum Security Correctional Facility
            Source: Photographs courtesy of USDB, Fort Leavenworth, KS


                                                                                                 DODIG-2014-103 │ 51
Appendixes



                    We visited military facilities with high numbers of convictions for QMOs including
                    Fort Hood, Texas; Fort Bragg, North Carolina; Naval Station Norfolk, Virginia;
                    Camp Lejeune, North Carolina; Keesler Air Force Base, Mississippi; Lackland, Air Force
                    Base, Texas; and Marine Corps Air Station Miramar, California. We also visited select
                    state registration centers near military facilities.

                    The OIG DoD team conducted site visits to all four correctional commands, eight
                    correctional facilities, and various military installations and State and local sex
                    offender registration centers.

                    Figure B-2. Site Visits

                                                       DoD IG TEAM SITE VISITS
                           Project No. 2012C012—Evaluation of DoD Compliance with SORNA


                                                                                                                    Foxtrot Ring (A) Travel
                                                                                                             US Army & Marine Corps Corrections
                                                                                                                        Commands, VA
                                                                                                                  Marine Brig, Quantico, VA
                                                                                                              Service Clemency & Parole Boards
                                                                                                                   MCIO HQ, Quantico, VA
                                                                                                             NCR Trials Counsel SJA, Quantico, VA




                                                                                                                                                            Alpha Ring Travel
                                                                                                                                                           Chesapeake Level II
                                                                                                                                                                Corrections
                                                                                                                                                          Norfolk NCIS/RSO/SJA
                                                                                                                                                           VA State Police HQ,
                                                                                                                                                             Chesterfield, VA

            Golf Ring Travel
            Miramar Level II
             Miramar NCIS
            Miramar MP/CID
         Camp Lejeune SJA/PMO
          Camp Pendleton NCIS                                                                                                                          Bravo Ring (A) Travel
             San Diego PD                                                                                                                              Camp Lejeune Level I
                                                                                                                                                        Camp Lejeune NCIS
                                         Echo Ring Travel                                                                                             Fort Bragg MP/CID/SJA
                                     Leavenworth Level III-JRCF                                                                                      North Carolina DoJ - State
                                     Leavenworth Level II-USDB
                                 Leavenworth County Sheriff’s Office

                                                                                                       Charlie Ring Travel
                                                                                                       Keesler AFB Level I
                                                                         Delta Ring Travel        Keesler AFB OSI/SFS/SJA/ADC                       Bravo Ring (B) Travel
                                                                   USAF Corrections Command        Mississippi DPS, Pearl, MS                        Charleston Level II
                                                                         Lackland AFB, TX
                                                                          Lackland Level I
                                                                       Lackland OSI/SJA/SFS                                     Foxtrot Ring (B) Travel
                                                                      Fort Hood CID/SJA/DES                                      US Navy Corrections
                                                                           Randolph OSI                                               Command
                                                                   Killeen & Universal City PDs                                     Millington, TN
                                                                   Texas DPS, Austin, TX




52 │ DODIG-2014-103
                                                                                           Appendixes



Military Correctional Commands

     1.	   U.S. Army Corrections Command, Alexandria, VA

     2.	   Headquarters U.S. Marine Corps, Plans, Policies, and Operations Department,
           Law Enforcement and Corrections, Alexandria, VA

     3.	   Headquarters Air Force Security Forces Center, Corrections Division,
           San Antonio, TX

     4.	   Office of Navy Corrections and Programs, Millington, TN

Military Correctional Facilities

     1.	   Level I, U.S. Marine Corps Correctional Facility, Camp Lejeune, NC

     2.	   Level I, U.S. Air Force Confinement Facility, Keesler AFB, MS

     3.	   Level I, U.S. Air Force Confinement Facility, Lackland AFB, TX

     4.	   Level II, U.S. Navy Consolidated Brig, Charleston, SC

     5.	   Level II, U.S. Navy Consolidated Brig, Chesapeake, VA

     6.	   Level II, U.S. Army Midwest Joint Regional Correctional Facility,
           Fort Leavenworth, KS

     7.	   Level II, U.S. Navy Correctional Facility, Miramar, CA

     8.	   Level III, U.S. Army Disciplinary Barracks, Fort Leavenworth, KS

Military Clemency and Parole Boards

     1.	   U.S. Air Force Clemency and Parole Board, Joint Base Andrews, MD

     2.	   U.S. Army Clemency and Parole Board, Army Review Boards Agency,
           Arlington, VA

     3.	   Navy and Marine Corps Appellate Leave Activity, Washington Navy Yard, D.C.

     4.	   Navy Clemency and Parole Board, Washington Navy Yard, D.C.

Military Legal

     1.	   Office of the Staff Judge Advocate, Fort Bragg, NC, Fort Hood, TX and
           Camp Lejeune, CA

     2.	   Area Defense Counsel and Office of the Staff Judge Advocate, Keesler AFB, MS




                                                                                      DODIG-2014-103 │ 53
Appendixes



                      3.	   Naval Station Norfolk Judge Advocate General, Norfolk, VA

                      4.	   802nd Mission Support Group, Judge Advocate Office, Joint Base San Antonio,
                            Lackland, TX

                      5.	   National Capitol Region Regional Trial Counsel, and Staff Judge Advocate
                            Office, Quantico, VA

                 Military Law Enforcement Activity

                      1.	   81st Security Forces Squadron (SFS), Keesler AFB, MS

                      2.	   Provost Marshal’s Office, Military Police Investigations, Fort Bragg, NC

                      3.	   802 SFS, Joint Base San Antonio Lackland, TX

                      4.	   Regional Security Office, Naval Station Norfolk, VA

                      5.	   87th Military Police Detachment CID and 32d MP Det CID, Fort Bragg, NC

                      6.	   Provost Marshal’s Office, Camp Lejeune, NC

                      7.	   Directorate of Emergency Services, Fort Hood, TX

                 Military Criminal Investigative Organizations

                      1.	   Headquarters, Air Force Office of Special Investigations (AFOSI), Quantico, VA

                      2.	   Headquarters, Naval Criminal Investigative Service (NCIS), Quantico, VA

                      3.	   Headquarters, U.S. Army Criminal Investigation Command (CID), Quantico, VA

                      4.	   U.S. Army Criminal Investigation Command, Fort Hood, TX

                      5.	   AFOSI Detachment 407, Keesler AFB, MS

                      6.	   NCIS Carolinas Field Office, Camp Lejeune, NC

                      7.	   AFOSI 4th Field Investigations Region, Randolph AFB, TX

                      8.	   Criminal Investigation Division, Marine Corps Air Station Miramar, CA

                      9.	   NCIS Marine Corps West Field Office, Camp Pendleton, CA

                      10.	 NCIS Norfolk Field Office, Norfolk, VA




54 │ DODIG-2014-103
                                                                                            Appendixes



State and Local Registration Centers

     1.	   Virginia State Police Administrative Headquarters, North Chesterfield, VA

     2.	   Texas Department of Public Safety, Crimes Records Service, Austin, TX

     3.	   Mississippi Department of Public Safety, Pearl, MS

     4.	   Leavenworth County Sheriff’s Office, Sex Offender Registration Unit,
           Leavenworth, KS

     5.	   San Diego Police Department Sex Offender Registration Unit, San Diego, CA

     6.	   Killeen Police Department Sex Offender Registration Unit, Killeen TX

     7.	   Universal City Police Department, Universal City, TX




                                                                                       DODIG-2014-103 │ 55
Appendixes




                 Appendix C
                 Listing of Offenses Requiring Sex Offender Registration
                 DoDI 1325.07, March 11, 2013, Appendix 4 to Enclosure 2
                      1.	   A Service member who is convicted in a general or special court-martial of
                            any of the offenses listed in Table 4, must register with the appropriate
                            authorities in the jurisdiction (State, the District of Columbia, the
                            Commonwealth of Puerto Rico, Guam, American Samoa, the Northern
                            Mariana Islands, the U.S. Virgin Islands, and Indian Tribes) in which he
                            or she will reside, work, or attend school upon leaving confinement, or
                            upon conviction if not confined. Generally, this registration must take place
                            within 3 days of release from confinement or within 3 days of conviction
                            if not confined.

                      2.	   Appropriate DoD officials, as designated in implementing Service regulations,
                            must inform the person so convicted of his or her duty to register and
                            must inform the appropriate officials in the offender’s stated jurisdiction
                            of residence as soon as possible after conviction (if not confined) and
                            before the prisoner’s release (if confined). Any failure of the appropriate
                            DoD officials to notify an offender of his or her requirement to register will
                            not serve to relieve that offender of his or her duty to so register.

                      3.	   A Service member convicted of any offenses listed in Table 4 or convicted
                            of offenses similar to those offenses listed below, shall be advised that
                            the individual jurisdictions in which the offender might live, work, or
                            attend school may require registration for offenses not listed below.
                            Each registration jurisdiction sets its own sex offender policy and laws.

                      4.	   Effective immediately, reporting (and notice to convicted persons) is
                            required based on a qualifying conviction of any offense listed below,
                            without regard to the date of the offense or the date of the conviction
                            for anyone incarcerated or under supervision (parole or mandatory
                            supervised release).

                      5.	   The offenses defined before October 1, 2007, are included to help
                            identification of those prisoners who were convicted of offenses occurring
                            before October 1, 2007; however, reporting could still be required if the
                            offense for which convicted occurred before October 1, 2007, but contained




56 │ DODIG-2014-103
                                                                                                        Appendixes



             elements that would require reporting if the offense had occurred on or
             after October 1, 2007.

       6.	   Notwithstanding the offenses listed in Table 4, offenses under Articles 120
             or 134 of the UCMJ that constitute only public sex acts between consenting
             adults do not require sex offender registration (i.e., indecent exposure).
             An offense involving consensual sexual conduct between adults is not a
             reportable offense, unless the adult victim was under the custodial care of
             the offender at the time of the offense. An offense involving consensual sexual
             conduct is not a reportable offense if the victim was at least 13 years old
             and the offender was not more than 4 years older than the victim (as
             determined by date of birth).

Table 4. Offenses Defined before October 1, 2007
 UCMJ ARTICLE       DIBRS CODE                                OFFENSE
 120              120A            Rape
 120              120B1/2         Carnal Knowledge
 125              125A            Forcible Sodomy
 125              125B1/2         Sodomy of a Minor
                                  Conduct Unbecoming an Officer (involving any sexually violent
 133              133D            offense or a criminal offense of a sexual nature against a
                                  Minor or kidnapping of a Minor)
 134              134-B6          Prostitution Involving a Minor
 134              134-C1          Indecent Assault
 134              134-C4          Assault with Intent to Commit Rape
 134              134-C6          Assault with Intent to Commit Sodomy
 134              134-R1          Indecent Act with a Minor
 134              134-R3          Indecent Language to a Minor
 134              134-S1          Kidnapping of a Minor (by a person not parent)
 134              134-Z           Pornography Involving a Minor
                                  Conduct Prejudicial to Good Order and Discipline (involving
 134              134-Z           any sexually violent offense or a criminal offense of a sexual
                                  nature against a Minor or kidnapping of a Minor)
                                  Assimilative Crime Conviction (of a sexually violent offense
 134              134-Y2          or a criminal offense of a sexual nature against a Minor or
                                  kidnapping of a Minor)
 80                               Attempt (to commit any of the foregoing)
 81                               Conspiracy (to commit any of the foregoing)
 82               082-A           Solicitation (to commit any of the foregoing)




                                                                                                   DODIG-2014-103 │ 57
Appendixes



                 Table 5. Offenses Defined on or After October 1, 2007 and Before June 28, 2012
                      UCMJ ARTICLE    DIBRS CODE                             OFFENSE
                      120(a)(1)      120-A1        Rape. Using Force
                      120(a)(2)      120-A2        Rape. Causing Grievous Bodily Harm
                      120(a)(3)      120-A3        Rape. Threatening Death, Grievous Bodily Harm, Kidnapping
                      120(a)(4)      120-A4        Rape. Rendering Unconscious
                      120(a)(5)      120-A5        Rape. Administering Drug, Intoxicant, Or Similar Substance
                      120(b)(1)      120-B3        Rape Of Child. Under 12 Years Old
                      120(b)(2)      120-B4        Rape Of Child. 12 - Under 16 Years Old
                                                   Rape Of Child. 12 - Under 16 Years Old. Causing Grievous
                      120(b)(2)      120-B5        Bodily Harm
                                                   Rape Of Child. 12 - Under 16 Years Old. Threatening Death,
                      120(b)(2)      120-B6        Grievous Bodily Harm, Kidnapping
                                                   Rape Of Child. 12 - Under 16 Years Old. Rendering
                      120(b)(2)      120-B7        Unconscious
                                                   Rape Of Child. 12 - Under 16 Years Old. Administering Drug,
                      120(b)(2)      120-B8        Intoxicant, Or Similar Substance.
                                                   Aggravated Sexual Assault. Threatening Or Placing in Fear
                      120(c)(1)(A)   120-C1        (Other than Of Death, Grievous Bodily Harm, Kidnapping)
                      120(c)(1)(B)   120-C2        Aggravated Sexual Assault. Causing Bodily Harm
                                                   Aggravated Sexual Assault. When Victim is Substantially
                      120(c)(2)      120-C3        Incapacitated/Unable to Appraise Act, Decline Participation,
                                                   Or Communicate Unwillingness
                      120(d)         120-D1        Aggravated Sexual Assault of a Child. 12 - Under 16 Years Old
                      120(e)         120-E1        Aggravated Sexual Contact. Using Force
                      120(e)         120-E2        Aggravated Sexual Contact. Causing Grievous Bodily Harm
                                                   Aggravated Sexual Contact. Threatening Death, Grievous
                      120(e)         120-E3        Bodily Harm, Kidnapping
                      120(e)         120-E4        Aggravated Sexual Contact. Rendering Unconscious
                                                   Aggravated Sexual Contact. Administering Drug, Intoxicant,
                      120(e)         120-E5        or Similar Substance
                      120(f)         120-F1        Aggravated Sexual Abuse of a Child
                      120(g)         120-G1        Aggravated Sexual Contact with a Child. Under 12 Years Old
                                                   Aggravated Sexual Contact with a Child. 12 - Under 16 Years
                      120(g)         120-G2        Old. Using Force
                                                   Aggravated Sexual Contact with a Child. 12 - Under 16 Years
                      120(g)         120-G3        Old. Causing Grievous Bodily Harm
                                                   Aggravated Sexual Contact with a Child. 12 - Under 16 Years
                      120(g)         120-G4        Old. Threatening Death, Grievous Bodily Harm, Kidnapping
                                                   Aggravated Sexual Contact with a Child. 12 - Under 16 Years
                      120(g)         120-G5        Old. Rendering Unconscious




58 │ DODIG-2014-103
                                                                                                    Appendixes



UCMJ ARTICLE    DIBRS CODE                              OFFENSE
                             Aggravated Sexual Contact with a Child. 12 - Under 16 Years
120(g)         120-G6        Old. Administering Drug, Intoxicant, or Similar Substance
120(h)         120-H1        Abusive Sexual Contact
120(h)         120-H2        Abusive Sexual Conduct. Causing Bodily Harm
                             Abusive Sexual Conduct. When Victim is Substantially
120(h)         120-H3        Incapacitated/Unable to Appraise Act, Decline Participation, or
                             Communicate Unwillingness
120(i)         120-I1        Abusive Sexual Contact with a Child. 12 - Under 16 Years Old
120(j)         120-J1        Indecent Liberty with a Child
120(k)         120-K1        Indecent Acts
120(l)         120-L1        Forcible Pandering
120(m)         120-M1        Wrongful Sexual Contact
125            125A          Forcible Sodomy
125            125B1/2       Sodomy of a Minor
                             Conduct Unbecoming an Officer that describes conduct set
133            133D          out in any Provision of this Appendix
134            134-B6        Prostitution Involving a Minor




                                                                                               DODIG-2014-103 │ 59
Appendixes




                 Appendix D
                 References
                 Federal Law
                 42 U.S.C. § 14071, “Jacob Wetterling Crimes against Children and Sexually Violent
                 Offender Registration Program.”

                 Public Law 105-119, “Departments of Commerce, Justice, and State, the Judiciary, and
                 Related Agencies Appropriations Act, 1998.

                 Public Law 109-248, “Adam Walsh Child Protection and Safety Act of 2006.”

                 Public law 97-291, “Victim and Witness Protection Act of 1982.”


                 DoD Issuances
                 Department of Defense Directive (DoDD) 5100.01, “Functions of the Department of
                 Defense and Its Major Components,” December 21, 2010.

                 DoDD 5124.02, “Under Secretary of Defense for Personnel and Readiness,” June 23, 2008.

                 DoDD 5106.01, “Inspector General of the Department of Defense (IG DoD),” April 13, 2006.

                 DoDD 1325.04, “Confinement of Military Prisoners and Administration of Military
                 Correctional Programs and Facilities,” August 17, 2001.

                 Defense   Transportation     Regulation   (DTR)   4500.9-R,   “Passenger    Movement,”
                 November 2010, includes changes through May 1, 2013.

                 Department of Defense Instruction (DoDI) 1325.07, “Administrations of Military
                 Correctional Facilities and Clemency and Parole Authority,” July 17, 2001, Incorporating
                 Change 1, June 10, 2003 (reissued March 11, 2013).

                 DoDI 5505.03, “Initiation of Investigations by Defense Criminal Investigative
                 Organizations,” March 24, 2011.

                 DoDI 1030.2, “Victim and Witness Assistance Procedures,” June 4, 2004.

                 DoDI 1325.7, “Administration of Military Correctional Facilities and Clemency and
                 Parole Authority,” July 17, 2001.




60 │ DODIG-2014-103
                                                                                            Appendixes



Service Issuances
Army
Army Regulation (AR) 27-10, “Military Justice,” October 3, 2011.

AR 600-8-24, “Officer Transfers and Discharges,” September 13, 2011.

AR 635-200, “Active Duty Enlisted Administrative Separations,” September 6, 2011.

AR 195-2, “Criminal Investigation Activities,” March 22, 2010.

AR 190-45, “Law Enforcement Reporting,” March 30, 2007.

AR 190-47, “The Army Corrections System,” June 15, 2006.

AR   611-1,   “Military   Occupational   Classification   Structure   Development   and
Implementation,” September 30, 1997.


Navy and Marines
Secretary of the Navy Instruction (SECNAVINST) 5430.108, “Department of the Navy
Sexual Assault Prevention and Response Office,” June 10, 2010.

Chief of Naval Operations (OPNAV) Instruction 1752.3, “Policy for Sex Offender Tracking
Assignment and Access Restrictions within the Navy,” May 27, 2009.

Department of the Navy Headquarters United States Marine Corps, “Policy
Letter-Registered Sex Offenders Prohibited Occupancy and Access to Marine Corps
Government-Owned, Leased, or Privatized Family,” December 31, 2008.

Memorandum from the Secretary of the Navy (SECNAV), “Policy for Sex Offender
Tracking and Assignment and Access Restrictions within the Department of the Navy,”
October 7, 2008.

Navy Military Personnel Manual (MILSPERSMAN) 1900-040, “Transfer to the Retired
List, Retired Reserve, or the Fleet Reserve in a Restricted Status,” September 22, 2008.

SECNAV Memorandum, “Delegation of Authority to Issue Debarment Letters,”
June 11, 2008.

NCIS 3, Chapter 34, “Sex Offenses,” September 2007.




                                                                                       DODIG-2014-103 │ 61
Appendixes



                 SECNAVINST 1640.9C, “Department of the Navy Corrections Manual,” January 3, 2006.

                 SECNAVINST 5430.107, “Mission and Functions of the Naval Criminal Investigative
                 Service,” December 28, 2005.

                 SECNAVINST 1752.4A, “Sexual Assault Prevention and Response,” December 1, 2005.

                 SECNAVINST 5800.14A, “Notice of Release of Military Offenders Convicted of Sex
                 Offender,” May 24, 2005.

                 SECNAVINST 5815.3J, “Department of the Navy Clemency and Parole Systems,”
                 June 12, 2003.

                 Marine Corps Order 1752.5A, “Sexual Assault Prevention and Response Program,”
                 February 8, 2008.


                 Air Force
                 Air   Force   Instruction   (AFI)   51-201,   “Administration    of   Military   Justice,”
                 February 3, 2010.

                 AFI 32-6001, “Family Housing Management,” August 21, 2006.

                 AFI 31-205, “The Air Force Corrections System,” April 7, 2004.

                 Air Force Guidance Memorandum for AFI 31-205, “The Air Force Corrections System,”
                 January 27, 2014.


                 Supplemental Guidance
                 U.S. DOJ SMART Office, SORNA Overview (Handbook), August 2013.

                 U.S. DOJ SMART Office, SORNA Overview (Handbook), July 2012.

                 U.S. DOJ SMART Office, SORNA Substantial Implementation Checklist, Summer 2008.

                 U.S. DOJ SMART Office, Frequently Asked Questions.

                 International Association of Chiefs of Police, “IACP Sexual Assault Incident Reports:
                 Investigative Strategies,” December 2008.




62 │ DODIG-2014-103
                                                                                           Appendixes



International Association of Chiefs of Police, “Strategically Monitoring Sex Offenders:
Accessing   Community     Corrections’   Resources   to   Enhance   Law   Enforcement
Capabilities,” August 2008.

International Association of Chiefs of Police, “IACP Registering and Tracking Sex
Offenders,” November, 2007.

International Association of Chiefs of Police, “Sex Offenders in the Community:
Enforcement and Prevention Strategies for Law Enforcement,” September 2007.




                                                                                      DODIG-2014-103 │ 63
Appendixes




                 Appendix E
                 Related Coverage
                 Below is a list of related coverage on sex offender management. Unrestricted GAO
                 reports can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD
                 IG reports can be accessed at http://www.dodig.mil/pubs/index.cfm, and National
                 Academy of Public Administration reports can be accessed at http://www.napawash.
                 org/reports-publications.html.

                      Navy Commercial Access Control System Did Not Effectively Mitigate Access
                      Control Risks. Report No. DODIG-2013-134, September 16, 2013.

                      Registered Sex Offenders: Sharing More Information Will Enable Federal Agencies
                      to Improve Notifications of Sex Offenders’ International Travel, Government
                      Accountability Office – GAO-13-200, February 14, 2013.

                      Sex Offender Registration and Notification Act: Jurisdictions Face Challenges to
                      Implementing the Act, and Stakeholders Report Positive and Negative Effects,
                      GAO-13-211, Feb 7, 2013.

                      Evaluation of DoD Correctional Facility Compliance with Military Sex
                      Offender Notification Requirements – DoD IG Report Number CIPO2002S003,
                      June 26, 2002.

                      Adapting Military Sex Crimes Investigations to Changing Times, Summary Report,
                      National Academy of Public Administration, June 1999.




64 │ DODIG-2014-103
                      Appendixes




Appendix F
DD Form 2701-1




                 DODIG-2014-103 │ 65
Management Comments




                 Management Comments
                 USD (P&R)




66 │ DODIG-2014-103
                     Management Comments



USD (P&R) (cont’d)




                           DODIG-2014-103 │ 67
Management Comments



                 USD (P&R) (cont’d)




68 │ DODIG-2014-103
                     Management Comments



USD (P&R) (cont’d)




                           DODIG-2014-103 │ 69
Management Comments



                 Secretary of the Army




70 │ DODIG-2014-103
                                      Appendixes



Secretary of the Army (cont’d)




                                 DODIG-2014-103 │ 71
Appendixes



Secretary of the Army (cont’d)




72 │ DODIG-2014-103
                                      Appendixes



Secretary of the Army (cont’d)




                                 DODIG-2014-103 │ 73
Appendixes



Secretary of the Army (cont’d)




74 │ DODIG-2014-103
                                      Appendixes



Secretary of the Army (cont’d)




                                 DODIG-2014-103 │ 75
Appendixes



Secretary of the Army (cont’d)




76 │ DODIG-2014-103
                                      Appendixes



Secretary of the Army (cont’d)




                                 DODIG-2014-103 │ 77
Appendixes



Secretary of the Navy

                                                                                                UNCLASSIFIED
          COMMENTS MATRIX FOR Evaluation of DoD Compliance with the Sex Offender Registration and Notification Act (Project No. 2012C012)
                                    POC NAME,
                                                                                COMMENT
            #       CLASS          PHONE, AND E-           PAGE       PARA                        COMMENTS, JUSTIFICATION, AND ORIGINATOR JUSTIFICATION FOR RESOLUTION                                  A/R/P
                                                                                  TYPE
                                         MAIL



                                                                                 HOW TO USE THE COMMENTS MATRIX
         GENERAL GUIDANCE:
                 To sort the table by page number, hover your mouse over the top of the first cell in the column until a downward arrow appears; click to select the entire column. Under Table Tools,
                  select Layout, and then click Sort and “OK.” To add new rows, copy and paste a blank row to keep consistent formatting. To add automatic numbering to column 1, select the entire
                  column and then click on the Numbering button under Paragraph on the Home ribbon.
         IF YOU ARE COORDINATING ON THE REPORT:
                 Use this form to provide critical and substantive comments. Complete the header and footer, columns 2-6, and the first two entries in column 7:
                  COLUMN 1                    Order comments by the pages/paragraphs that they apply to in columns 4 and 5.
                  COLUMN 2                    Enter the classification of the comment. If all comments are unclassified, mark the header and footer and ignore the column.
                  COLUMNS 3, 4, AND 5         Enter the appropriate information for each comment.
                  COLUMN 6                    Enter comment type (C or S). Do NOT include administrative comments such as reference dates or grammatical errors.
                                              (C) CRITICAL: When a Coordinator has one or more critical comments, that Coordinator’s coordination is an automatic nonconcur. The justification for critical
                                              comments MUST identify violations of law or contradictions of Executive Branch, DoD policy, or Service policy; unnecessary risks to safety, life, limb, or DoD
                                              materiel; waste or abuse of DoD appropriations; or imposition of an unreasonable burden on a Coordinator’s resources.


                                              (S) SUBSTANTIVE: Make a substantive comment if a part of the report seems unnecessary, incorrect, misleading, confusing, or inconsistent with other sections,
                                              or if you disagree with the proposed responsibilities, requirements, or procedures. One substantive comment is usually not sufficient justification for a
                                              nonconcur. Multiple substantive comments may be grounds for a nonconcur.


                  COLUMN 7                    Place only one comment per row. Enter your comment, recommended changes, and justification in the first two areas provided. YOU MUST PROVIDE
                                              CONVINCING SUPPORT FOR CRITICAL COMMENTS IN THE JUSTIFICATION.
                 Review the comments, resolve any conflicting views, and confirm that the completed matrix accurately represents your position.
         IF YOU ARE ORIGINATING THE REPORT:
                 Consolidate comments from all coordinators and adjudicate them. Leave columns 4 and 5 blank for general comments that apply to the whole document. Sort comments by the
                  pages/paragraphs to which they apply using the General Guidance sort feature (e.g., all comments from all coordinators that apply to page 1, paragraph 1.a., should be together; all
                  comments that apply to page 1, paragraph 1.b., should be next). Set classification header, footer, and columns 1 and 2 as appropriate. Complete last entry in column 7, and column 8:
                  COLUMN 7        If you rejected or partially accepted a comment, enter your justification in the originator justification area. Leave blank if you accepted it. Include any related
                                  communications with the coordinating entity. You MUST provide convincing support for rejecting critical comments.
                  COLUMN 8        Enter whether you accepted (A), rejected (R), or partially accepted (P) the comment. Your justification in column 7 must be consistent with this entry.




                                                                                                 UNCLASSIFIED                                                                                                   1


78 │ DODIG-2014-103
                                                                                                                                                                    Appendixes



Secretary of the Navy (cont’d)

                                                                  UNCLASSIFIED
     COMMENTS MATRIX FOR Evaluation of DoD Compliance with the Sex Offender Registration and Notification Act (Project No. 2012C012)
                        POC NAME,
                                                        COMMENT
         #   CLASS     PHONE, AND E-      PAGE   PARA              COMMENTS, JUSTIFICATION, AND ORIGINATOR JUSTIFICATION FOR RESOLUTION          A/R/P
                                                          TYPE
                           MAIL


             U       LCDR Eisenberg,      12     A.2    S         Coordinator Comment: DNA Processing reference in block 7 of DD FORM           Choose
                     202 685-7717,                                2701-1 Mar 2013 is outdated. Correct reference in block 7 should read “DoDI   an item.
                     Mitchell.eisenberg                           5505.14.”
                     @navy.mil
     1                                                            Coordinator Justification: DoDI 5505.14 more accurately states the DNA
                                                                  processing requirements.

                                                                  Originator Justification for Resolution:

             U       LCDR Eisenberg,      12     A.2    S         Coordinator Comment: Sex Offender Registration Reference in block 8 of        Choose
                     202 685-7717,                                DD FORM 2701-1 Mar 2013 is outdated. Correct reference in block 8 should      an item.
                     Mitchell.eisenberg                           read “42 U.S.C. §16917”
                     @navy.mil
     2
                                                                  Coordinator Justification: New law more accurately states sex offender
                                                                  registration requirements.

                                                                  Originator Justification for Resolution:




                                                                  UNCLASSIFIED                                                                             2


                                                                                                                                                               DODIG-2014-103 │ 79
Appendixes



Secretary of the Air Force

                                                                                                UNCLASSIFIED
          COMMENTS MATRIX FOR Evaluation of DoD Compliance with the Sex Offender Registration and Notification Act (Project No. 2012C012)
                                    POC NAME,
                                                                                COMMENT
            #       CLASS          PHONE, AND E-           PAGE       PARA                        COMMENTS, JUSTIFICATION, AND ORIGINATOR JUSTIFICATION FOR RESOLUTION                                  A/R/P
                                                                                  TYPE
                                         MAIL



                                                                                 HOW TO USE THE COMMENTS MATRIX
         GENERAL GUIDANCE:
              •   To sort the table by page number, hover your mouse over the top of the first cell in the column until a downward arrow appears; click to select the entire column. Under Table Tools,
                  select Layout, and then click Sort and “OK.” To add new rows, copy and paste a blank row to keep consistent formatting. To add automatic numbering to column 1, select the entire
                  column and then click on the Numbering button under Paragraph on the Home ribbon.
         IF YOU ARE COORDINATING ON THE REPORT:
              •   Use this form to provide critical and substantive comments. Complete the header and footer, columns 2-6, and the first two entries in column 7:
                  COLUMN 1                    Order comments by the pages/paragraphs that they apply to in columns 4 and 5.
                  COLUMN 2                    Enter the classification of the comment. If all comments are unclassified, mark the header and footer and ignore the column.
                  COLUMNS 3, 4, AND 5         Enter the appropriate information for each comment.
                  COLUMN 6                    Enter comment type (C or S). Do NOT include administrative comments such as reference dates or grammatical errors.
                                              (C) CRITICAL: When a Coordinator has one or more critical comments, that Coordinator’s coordination is an automatic nonconcur. The justification for critical
                                              comments MUST identify violations of law or contradictions of Executive Branch, DoD policy, or Service policy; unnecessary risks to safety, life, limb, or DoD
                                              materiel; waste or abuse of DoD appropriations; or imposition of an unreasonable burden on a Coordinator’s resources.


                                              (S) SUBSTANTIVE: Make a substantive comment if a part of the report seems unnecessary, incorrect, misleading, confusing, or inconsistent with other sections,
                                              or if you disagree with the proposed responsibilities, requirements, or procedures. One substantive comment is usually not sufficient justification for a
                                              nonconcur. Multiple substantive comments may be grounds for a nonconcur.


                  COLUMN 7                    Place only one comment per row. Enter your comment, recommended changes, and justification in the first two areas provided. YOU MUST PROVIDE
                                              CONVINCING SUPPORT FOR CRITICAL COMMENTS IN THE JUSTIFICATION.
              •   Review the comments, resolve any conflicting views, and confirm that the completed matrix accurately represents your position.
         IF YOU ARE ORIGINATING THE REPORT:
              •   Consolidate comments from all coordinators and adjudicate them. Leave columns 4 and 5 blank for general comments that apply to the whole document. Sort comments by the
                  pages/paragraphs to which they apply using the General Guidance sort feature (e.g., all comments from all coordinators that apply to page 1, paragraph 1.a., should be together; all
                  comments that apply to page 1, paragraph 1.b., should be next). Set classification header, footer, and columns 1 and 2 as appropriate. Complete last entry in column 7, and column 8:
                  COLUMN 7        If you rejected or partially accepted a comment, enter your justification in the originator justification area. Leave blank if you accepted it. Include any related
                                  communications with the coordinating entity. You MUST provide convincing support for rejecting critical comments.
                  COLUMN 8        Enter whether you accepted (A), rejected (R), or partially accepted (P) the comment. Your justification in column 7 must be consistent with this entry.




                                                                                                 UNCLASSIFIED                                                                                                   1


80 │ DODIG-2014-103
                                                                                                                                                                 Appendixes



Secretary of the Air Force (cont’d)

                                                                      UNCLASSIFIED
     COMMENTS MATRIX FOR Evaluation of DoD Compliance with the Sex Offender Registration and Notification Act (Project No. 2012C012)
                         POC NAME,
                                                           COMMENT
      #     CLASS       PHONE, AND E-        PAGE   PARA              COMMENTS, JUSTIFICATION, AND ORIGINATOR JUSTIFICATION FOR RESOLUTION    A/R/P
                                                             TYPE
                             MAIL


           Choose Sheryll I. Klinkel,                      Choose     Coordinator Comment: SAF/PA recommends response to query when          Choose
           an item. 703-697-6061,                          an item.   changes are instituted by JA or A7 communities as directed by DoD.     an item.
                      sheryll.i.klinkel.mi
                      l@mail.mil                                      Coordinator Justification:
                                                                      Proactive communication not required for those equities.
                                                                      Originator Justification for Resolution:

           Choose                                          Choose     Coordinator Comment:                                                   Choose
           an item.                                        an item.                                                                          an item.
                                                                      Coordinator Justification:

                                                                      Originator Justification for Resolution:
           Choose                                          Choose     Coordinator Comment:                                                   Choose
           an item.                                        an item.                                                                          an item.
                                                                      Coordinator Justification:

                                                                      Originator Justification for Resolution:
           Choose                                          Choose     Coordinator Comment:                                                   Choose
           an item.                                        an item.                                                                          an item.
                                                                      Coordinator Justification:

                                                                      Originator Justification for Resolution:
           Choose                                          Choose     Coordinator Comment:                                                   Choose
           an item.                                        an item.                                                                          an item.
                                                                      Coordinator Justification:

                                                                      Originator Justification for Resolution:




                                                                      UNCLASSIFIED                                                                      2


                                                                                                                                                            DODIG-2014-103 │ 81
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                            AFI Air Force Instruction
                         AFOSI Air Force Office of Special Investigations
                            AG U.S. Attorney General
                           APIS Advance Passenger Information System
                            AR Army Regulation
                            CID U.S. Army Criminal Investigations Command
                           CBP U.S. Customs and Border Protection
                           CJIS Criminal Justice Information Services Division
                         CLASS Consular Lookout and Support System
                       CORMIS Corrections Management Information System
                         DEERS Defense Enrollment Eligibility Reporting System
                          DDEX Defense Data Exchange
                         DHRA Defense Human Resource Activity
                          DIAC Defense Installation Access Control
                           DNA Deoxyribonucleic acid
                           DoD Department of Defense
                         DoDD Department of Defense Directive
                          DoDI Department of Defense Instruction
                           DOJ Department of Justice
                           DPS Department of Public Safety
                           DTR Defense Transportation Regulation
                            FBI Federal Bureau of Investigation
                          IAFIS Integrated Automated Fingerprint Identification System
                            ICE U.S. Immigration and Customs Enforcement
                             IG Inspector General
                         IMESA Identity Management Enterprise Services Architecture
                      INTERPOL International Criminal Police Organization
                             JA Judge Advocate
                           JAG Judge Advocate General
                         JBSAR Joint Base San Antonio Randolph
                           KPD Killeen Police Department
                             LE Law Enforcement
                            LEA Law Enforcement Activity
                           LEPS Law Enforcement Policy and Support Office
                           MCF Military Correctional Facility
                          MCIO Military Criminal Investigation Organization
                           MCP Military Corrections Programs
                           MSR Mandatory Supervised Release


82 │ DODIG-2014-103
                                                                              Acronyms and Abbreviations




Acronyms and Abbreviations (cont’d)
        NCIC National Crime Information Center
        NCIS Naval Criminal Investigative Service
       NCPB Navy Clemency and Parole Board
     NSOPW National Sex Offender Public Website
       NSOR National Sex Offender Registry
      NSOTC National Sex Offender Targeting Center
    OCONUS Outside of the Continental United States
    OPM-FIS U.S. Office of Personnel Management, Federal Investigative Services
      OPNAV Office of the Chief of Naval Operations
  OPNAVINST Department of the Navy Chief of Naval Operations Instruction
        PMO Provost Marshal Office
         PPS U.S. Probation and Pretrial Services
        QMO Qualifying Military Offenses
         ROT Report of Results of Trial
        SAPR Sexual Assault Prevention and Response
       SECAF Secretary of the Air Force
   SECARMY Secretary of the Army
     SECNAV Secretary of the Navy
      SECDEF Secretary of Defense
 SECNAVINST Secretary of the Navy Instruction
         SFS Security Forces Squadron
      SHARP Sexual Harassment/Assault Prevention
         SJA Service Judge Advocate
      SMART Sex Offender Sentencing, Monitoring, Apprehending, Registering, & Tracking
         SOR Sex Offender Registry
      SORNA Sexual Offender Registration and Notification Act
         TSA Transportation Security Administration
        TSOC Transportation Security Operations Center
       UCMJ Uniform Code of Military Justice
       UCPD Universal City Police Department
         UCR Uniform Crime Reporting
       U.S.C. United States Code
   USD(P&R) Under Secretary of Defense for Personnel and Readiness
       USDB U.S. Disciplinary Barracks
       USMS U.S. Marshals Service
        USPC U.S. Parole Commission
       USPO U.S. Probation Office/Officer
USTRANSCOM U.S. Transportation Command


                                                                                         DODIG-2014-103 │ 83
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
